OFFICES, BOARDS AND DIVISIONS

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2010

        U.S. Department of Justice
	
      Office of the Inspector General
	
               Audit Division
	

           Audit Report 11-11
            January 2011
              OFFICES, BOARDS AND DIVISIONS

              ANNUAL FINANCIAL STATEMENTS

                     FISCAL YEAR 2010


                OFFICE OF THE INSPECTOR GENERAL

                   COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Offices, Boards and Divisions (OBDs) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of
the Office of the Inspector General (OIG), KPMG LLP performed the
OBDs’ audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2010 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with U.S.
generally accepted accounting principles. For FY 2009, the OBDs also
received an unqualified opinion on its financial statements (OIG Report
No. 10-12).

       KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting did not identify any significant
deficiencies. In the FY 2010 Independent Auditors’ Report on
Compliance and Other Matters, the auditors identified no instances of
non-compliance with applicable laws and regulations and the Federal
Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation
and made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the OBDs’ financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the OBDs’ financial management systems
substantially complied with the Federal Financial Management
Improvement Act of 1996, or conclusions on compliance with laws and
regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 4, 2010, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with U.S. generally accepted
government auditing standards.
This page intentionally left blank. 

             OFFICES, BOARDS AND DIVISIONS

             ANNUAL FINANCIAL STATEMENTS

                    FISCAL YEAR 2010

                           TABLE OF CONTENTS

                                                                                PAGE
	

MANAGEMENT'S DISCUSSION AND ANALYSIS......................................... 3
	

INDEPENDENT AUDITORS’ REPORTS
	

  REPORT ON FINANCIAL STATEMENTS ............................................... 37
	

  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 39
	

  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 43
	

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES
	

  CONSOLIDATED BALANCE SHEETS ................................................... 46
	

  CONSOLIDATED STATEMENTS OF NET COST...................................... 47
	

  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 48
	

  COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 50
	

  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ............................ 51
	

  NOTES TO THE FINANCIAL STATEMENTS ........................................... 52
	

REQUIRED SUPPLEMENTARY INFORMATION
	

  COMBINING STATEMENTS OF BUDGETARY RESOURCES ....................... 80
	
This page intentionally left blank. 

Management’s Discussion and Analysis 

              Unaudited 





               -1-
This page intentionally left blank. 





            -2-
Management’s Discussion and Analysis
(unaudited)

This report presents the Annual Financial Statements of the Offices, Boards and Divisions (the OBDs) for the
fiscal years (FY) ended September 30, 2010 and 2009. In accordance with the Government Management
Reform Act (GMRA) of 1994, the Attorney General prepares, and submits to the Director of the Office of
Management and Budget (OMB), audited financial statements covering the accounts and activities of the
Department of Justice (DOJ or the Department). The OBDs entity is comprised of legal, executive, and
management organizations. Collectively, these organizations comprise one of the DOJ financial statement
reporting entities.

MISSION
The overall mission of the Department, as reflected in its Strategic Plan for the FYs 2007-2012, is stated as
follows:



 "...to enforce the law and defend the interests of the United States according to the law; to
ensure public safety against threats foreign and domestic; to provide federal leadership in
preventing and controlling crime; to seek just punishment for those guilty of unlawful
behavior; and to ensure fair and impartial administration of justice for all Americans."



The OBDs play a major role in carrying out this mission. The OBDs entity is diverse, with responsibility for
performing a broad array of program activities. The OBDs represent the American people in all legal matters
involving the United States Government. These legal activities include ensuring fair and healthy competition
of business; safeguarding consumers; enforcing drug and immigration laws; and protecting citizens through
effective law enforcement. The OBDs also supervise the administration of bankruptcy cases in the federal
Bankruptcy Courts; uphold the civil rights of all Americans; enforce laws protecting the environment;
represent the United States in civil and criminal litigation; develop and enforce criminal statutes; conduct
criminal investigations and coordinate law enforcement matters with foreign governments; and represent the
United States in civil and criminal litigation arising from internal revenue laws. Additionally, the National
Security Division (NSD) consolidates the Department’s primary national security elements within a single
Division to ensure greater coordination and unity of purpose between prosecutors and law enforcement
agencies as well as intelligence attorneys and the Intelligence Community.

The OBDs conduct all suits in the Supreme Court in which the United States is concerned. Further, the OBDs
represent the Government in legal matters, including the rendering of advice and opinions, upon request, to the
President and to the heads of executive departments and agencies.

In addition to legal activities, the OBDs provide leadership and assistance to State, local, and tribal
governments through the Office of Community Oriented Policing Services (COPS). The OBDs include the
DOJ executive leadership offices, which assist the Attorney General in the overall supervision and
management of DOJ programs, and provide executive assistance and support to the 94 Offices of the United
States Attorneys (USAs). The OBDs perform the management, policy development, and advisory functions
that support DOJ budgeting and financial management, personnel management, information technology
management, equal employment opportunity, and resource planning. Finally, the OBDs manage and oversee
federal prisoner detention by establishing a secure and effective operating environment that drives efficient
and fair expenditure of appropriated funds. Administratively, the OBDs manage the Working Capital Fund
(WCF), which is a revolving fund that is authorized by law to finance a cycle of operations where the costs for



                                                   -3-
goods or services provided are charged back to the recipient. The funds received are available to continue
operations and for future investments. In many ways, the WCF has characteristics typical of a business
enterprise.

ORGANIZATIONAL STRUCTURE
The following organization chart shows the organizational structure of the OBDs entity (the OBDs are shown
in colored or shaded boxes) as it relates to the rest of the Department (non-OBDs are shown in boxes that are
not colored or shaded). The Justice Management Division (JMD) oversees the administrative operations of the
WCF.


                                                                         U.S. DEPARTMENT OF JUSTICE



                                                                                        Attorney General


                                                                                               Deputy
                                                                                          Attorney General



                                                  ASSOCIATE
             SOLICITOR
                                                  ATTORNEY
             GENERAL                               GENERAL


                                                                                                       OFFICE OF
               OFFICE OF                                                                  OFFICE OF
                                                                                                        PUBLIC
                 THE                                                                    LEGAL POLICY
                                                                                                        AFFAIRS
               SOLICITOR
               GENERAL



                                                                                          OFF CE OF    OFFICE OF
                                         COMMUNITY                                       LEGISLATIVE    LEGAL
              OFFICE OF                                         CIVIL                                                 FEDERAL                         NATIONAL         OFFICE OF
                                          ORIENTED                            CIVIL        AFFAIRS     COUNSEL                        CRIMINAL
               JUSTICE                                        RIGHTS                                                 BUREAU OF                        SECURITY       PROFESS ONAL
                                          POLICING                          DIVISION                                                  DIVISION
              PROGRAMS                                        DIVISION                                             INVESTIGAT ON                      DIVISION       RESPONSIBILITY
                                          SERVICES


                                                                                          OFFICE OF
               EXECUTIVE                                                  ENVIRONMENT       INTER-     OFFICE OF
                                           OFFICE OF                                                     TRIBAL         DRUG                          OFFICE OF       OFFICE OF THE
              OFFICE FOR                                  ANTITRUST       AND NATURAL   GOVERNMENTAL                                 BUREAU OF
                                         INFORMAT ON                                                    JUSTICE     ENFORCEMENT                     THE INSPECTOR       PARDON
             UNITED STATES                                 DIV S ON        RESOURCES      AND PUBLIC                                  PRISONS
                                            POLICY                                                                 ADM NISTRATION                      GENERAL         ATTORNEY
               TRUSTEES                                                     DIVISION       LIAISON



                                           FOREIGN                                                                   EXECUTIVE        UNITED
               OFFICE OF                                                  COMMUNITY                                                                   JUSTICE        UNITED STATES
                                            CLA MS              TAX                                                 OFFICE FOR        STATES
                DISPUTE                                                   RELATIONS                                                                 MANAGEMENT          PAROLE
                                         SETTLEMENT           DIVISION                                             UNITED STATES     MARSHALS
              RESOLUTION                                                   SERVICE                                                                    DIVISION        COMMISSION
                                         COMMISSION                                                                 ATTORNEYS         SERVICE



                             OFFICE ON                                                                                              U.S. NATIONAL    EXECUTIVE
                             VIOLENCE                                                                                  UNITED                                        NATIONAL DRUG
                                                                                                                                       CENTRAL       OFFICE FOR
                              AGAINST                                                                                  STATES                                         NTELLIGENCE
                                                                                                                                       BUREAU        MM GRATION
                              WOMEN                                                                                  ATTORNEYS                                          CENTER
                                                                                                                                      INTERPOL        REVIEW



                                                                                                                    BUREAU OF                                        EXECUTIVE OFFICE
                                                                                                                                    OFFICE OF THE   PROFESSIONAL
                                                                                                                     ALCOHOL,                                         FOR ORGANIZED
                                                                                                                                      FEDERAL       RESPONSIBILITY      CRIME DRUG
                                                                                                                     TOBACCO,        DETENTION        ADVISORY         ENFORCEMENT
                                                                                                                    FIREARMS, &
                                                                                                                                      TRUSTEE          OFFICE          TASK FORCES
                                                                                                                    EXPLOSIVES




FINANCIAL STRUCTURE
The OBDs receive funding in over 130 different annual, multi-year, and no-year appropriations. Generally,
annual appropriations provide for most, but not all, salaries and expenses, and core program activities, while
multi-year and no-year funding provides for a wide variety of specialized programs, activities, and functions.
Individual OBDs components receive allotments and sub-allotments, as part of DOJ funds control. The OBDs
financial statements report the consolidated assets, liabilities, and results of the OBDs operations.




                                                                                        -4-
ANALYSIS OF FINANCIAL STATEMENTS

The OBDs financial statements received an unqualified audit opinion for the eleventh straight year. These
statements have been prepared from the accounting records of OBDs in conformity with the U.S. generally
accepted accounting principles and OMB Circular A-136, “Financial Reporting Requirements.” These
principles are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

Highlights of the financial and budgetary information presented in the financial statements are shown below:

Assets – The OBDs Consolidated Balance Sheet as of September 30, 2010 shows $6.8 billion in total assets,
an increase of $931 million from the FY 2009 total assets of $5.8 billion. Fund Balance with U.S. Treasury
was $5.8 billion as of September 30, 2010, which represents 85.9 percent of total assets. This increase is
primarily related to Debt Collection Management (DCM) collections within the General Fund Receipts
account, Fines, Penalties, and Forfeitures, and Custodial Activity collections.

Liabilities – Total OBDs liabilities were $2.8 billion as of September 30, 2010, an increase of $857 million
from the previous year’s total liabilities of $1.9 billion. This increase can be attributed to the increase in
collections within Fines Penalties, and Forfeitures receipt account, the substantial increase in the Radiation
Exposure Compensation Act (RECA) Liability estimate, and an additional increase in Debt Collection
custodial liabilities.

Net Cost of OBDs Operations – The Consolidated Statement of Net Cost presents the OBDs gross and net
cost for the Department’s three strategic goals. The net cost of OBDs operations totaled $7.1 billion for the
fiscal year ended September 30, 2010, an increase of $550 million from the previous year’s net cost of
operations of $6.6 billion. A portion of the increase can be attributed to an increase in RECA estimations.

Budgetary Resources – The OBDs Combined Statement of Budgetary Resources shows $10.5 billion in total
budgetary resources, a decrease of $269 million from FY 2009 total budgetary resources of $10.7 billion. The
decrease is primarily due to a decrease in Budget Authority.

Net Outlays – The OBDs Combined Statement of Budgetary Resources shows $6.4 billion in net outlays for
the fiscal year ended September 30, 2010, an increase of $190 million from the previous year’s total net
outlays of $6.2 billion.

Custodial Collections – The OBDs Combined Statement of Custodial Activity shows $4.8 billion in total
custodial collections for the fiscal year ended September 30, 2010, an increase of $1.9 billion from the
FY 2009 total custodial collections of $2.9 billion. This increase is directly related to an increase in DCM
Collections related to Delinquent Federal Civil Debts as Required by the Federal Debt Recovery Act of 1986.

PERFORMANCE INFORMATION

The OBDs resource and performance information is presented on the following pages. The performance
information is organized by Strategic Goal and Strategic Objective and is consistent with the Department’s
Government Performance and Results Act (GPRA) performance plans.

The OBDs Consolidated Statements of Net Cost for FY 2010 and FY 2009 are presented using the three
Strategic Goals as contained in the Strategic Plan for FYs 2007-2012. The Strategic Plan is available on the
Internet at DOJ’s website: http://www.justice.gov. The three Strategic Goals are listed in Table 2.

Because of the diversity of the OBDs components and their individual programs and missions, the OBDs are
involved in all three DOJ Strategic Goals. Table 1 and Table 2, along with associated graphs, provide an
overview of the sources of OBDs resources and how they were spent (by goal).



                                                   -5-
                                  Table 1. Sources of OBDs Resources

                                           (Dollars in Thousands)

                                                                                           Percent
                        Source                              FY 2010         FY 2009        Change

Earned Revenue                                                $1,259,260     $1,178,120          6.9%
Budgetary Financing Sources
  Appropriations Received                                      7,310,715      7,912,214         -7.6%
  Appropriations Transferred In/Out                            (209,609)      (261,192)         19.7%
  Nonexchange Revenues                                               319            233         36.9%
  Transfers In/Out Without Reimbursement                          75,097         89,948        -16.5%
  Other Adjustments and Other Budgetary Financing
 Sources                                                        (49,751)      (209,426)         76.2%
Other Financing Sources
  Transfers In/Out Without Reimbursement                        (81,783)       (88,381)          7.5%
  Imputed Financing from Costs Absorbed by Others                163,195        161,244          1.2%
                                                    Total     $8,467,443     $8,782,760         -3.6%



                               Table 2. ( How OBDs Resources are Spent
                                            Dollars in Thousands)
                                                                                           Percent
                 Strategic Goal (SG)                        FY 2010         FY 2009        Change
 SG 1  Prevent Terrorism and Promote the Nation’s
       Security
                                          Gross Cost           $359,943        $340,620
                               Less: Earned Revenue            (110,232)       (114,099)
                                             Net Cost            249,711         226,521       10.2%
 SG 2	 Prevent Crime, Enforce Federal Laws, and
       Represent the Rights and Interests of the
       American People
                                          Gross Cost          $5,763,437      $5,265,364
                               Less: Earned Revenue            (968,224)       (865,107)
                                             Net Cost          4,795,213       4,400,257        9.0%
 SG 3 Ensure the Fair and Efficient Administration
       of Justice
                                          Gross Cost          $2,269,929      $2,156,636
                               Less: Earned Revenue            (180,804)       (198,914)

                                             Net Cost          2,089,125       1,957,722        6.7%

                                     Total Gross Cost         $8,393,309     $7,762,620
                          Less: Total Earned Revenue          (1,259,260)    (1,178,120)
                          Total Net Cost of Operations        $7,134,049      $6,584,500        8.3%




                                                    -6-
                          Comparison of Net Costs
               (Dollars in Thousands) - FY 2010 and FY 2009



$4,150,000




$3,150,000




$2,150,000




$1,150,000




 $150,000
               SG1                    SG2                     SG3
FY 2009      $226,521             $4,400,257               $1,957,722
FY 2010      $249,711             $4,795,213               $2,089,125




                     FY 2010 Net Costs by Strategic Goal



                                  SG3
                                 29.3%


                                                                        SG 1
                                                                        3. 5%




                                   SG 2
                                  67. 2%




                                  -7-
2010 Financial Highlights

A brief description of some of the major costs included in each Strategic Goal follows.

    •	 Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security includes resources
       dedicated to counterterrorism initiatives in the National Security Division, the United States
       Attorneys’ offices and Criminal Division.

    •	 Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests
       of the American People includes the functions of the legal divisions, the U.S. Attorneys, the U.S.
       Trustees, and the Organized Crime Drug Enforcement Task Force program. Goal 2 also includes the
       Community Oriented Policing Services and the administrative costs of the Office on Violence Against
       Women.

    •	 Strategic Goal 3, Ensure the Fair and Efficient Administration of Justice includes the Office of
       the Federal Detention Trustee, the U.S. Parole Commission, and the Executive Office for Immigration
       Review.


Data Reliability and Validity

The OBDs view data reliability and validity as critically important in the planning and assessment of our
performance. As such, this document includes a discussion of data validation, verification, and any identified
data limitations for each performance measure presented. Each Reporting Component ensures that data
reported meets the following criteria:

        At a minimum, performance data are considered reliable if transactions and other data that
        support reported performance measures are properly recorded, processed, and summarized to
        permit the preparation of performance information in accordance with criteria stated by
        management. Performance data need not be perfect to be reliable, particularly if the cost and
        effort to secure the best performance data possible will exceed the value of any data so
        obtained.




                                                  -8-
FY 2010 REPORT ON SELECTED ACCOMPLISHMENTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security

4% of OBDs Net Costs support this Goal.

  STRATEGIC OBJECTIVE 1.1: Prevent, disrupt, and defeat terrorist operations before they occur.

  STRATEGIC OBJECTIVE 1.3: Prosecute those who have committed, or intend to commit, terrorist acts

  in the United States.

  STRATEGIC OBJECTIVE 1.4: Combat espionage against the United States.



 Investigate and Prosecute Terrorist Acts

Background/Program Objectives: Through both criminal and national security investigations, DOJ works to
arrest and prosecute or deport terrorists and their supporters and to disrupt financial flows that provide
resources to terrorist operations. These investigations enable the Department to gather information, punish
terrorists, develop and solidify relationships with critical partners, and maintain a presence visible to both
potential terrorists and the American public. Within the OBDs, both the Criminal Division and the United
States Attorneys are heavily involved in the DOJ’s counterterrorism mission. The United States Attorneys’
offices, the National Security Division, and the Criminal Division focus on the development and prosecution
of terrorism and cyberterrorism cases, and the coordination of information-sharing and partnerships. The 94
United States Attorneys’ offices are part of a national network that coordinates the dissemination of
information and the development of a preventive, investigative and prosecutorial strategy among federal law
enforcement agencies, primary State and local police forces, and other appropriate State agencies in each of
the 94 federal judicial districts. The National Security Division coordinates counterterrorism issues with the
U.S. Attorneys’ offices, other Executive Branch agencies, and multilateral organizations.

Performance Measure: Terrorism/Anti-Terrorism Convictions

FY 2010 Target: In accordance with Department guidance, targeted levels of performance are not projected
for this indicator.
FY 2010 Actual Performance: 292

Discussion of FY 2010 Results: The national security work conducted by the U.S. Attorneys’ Offices in
FY 2010 resulted in 292 convictions and encompassed terrorism and terrorism-related cases. The larger U.S.
Attorneys’ offices, such as the Eastern District of Virginia, Southern District of New York, the District of
Columbia, the Eastern District of New York, Southern District of Florida, the California districts, Northern
District of Illinois, and several others have been involved in large-scale trials and investigations, and while
these ultimately pay off in convictions, they are a long, slow process. Apart from the high profile and long-
term cases, many U.S. Attorneys’ offices continue to work on terrorism-related investigations and trials.
The prevention of terrorist attacks and the prosecution of the war on terrorism remain the top priorities of the
Department. In FY 2010, the U.S. Attorneys filed a total of 236 cases against 385 defendants. These cases
include international and domestic terrorism cases, terrorism-related financing cases, terrorism-related hoax
cases, as well as national security/critical infrastructure cases. Defendants convicted in national
security/critical infrastructure cases, which were previously labeled as “anti-terrorism cases,” have not
necessarily engaged in terrorist-related activity. Rather, these cases were brought to prevent or disrupt
potential or actual terrorist threats where the criminal conduct impacts national security or exposes critical
infrastructure to potential terrorist exploitation. A total of 220 cases against 347 defendants were terminated
in FY 2010.



                                                   -9-
The U.S. Attorneys obtained convictions in a number of international and domestic terrorism cases, including:

        On October 29, 2009, in the Central District of Illinois, Ali Saleh Kahlah al-Marri was sentenced to
        100 months imprisonment and 3 years of supervised release. Ali al-Marri pleaded guilty to conspiracy
        to provide material support to al-Qaeda in the form of personnel, including himself, to work under al-
        Qaeda’s direction and control with the intent to further the terrorist activity or terrorism objectives of
        al-Qaeda. Ali al-Marri was an al-Qaeda “sleeper” operative working on U.S. soil and directed by the
        chief planner of the 9-11 attacks. Al-Marri researched the use of chemical weapons, potential targets
        and maximum casualties.

        On October 5, 2010, in the Southern District of New York, Faisal Shahzad was sentenced to life in
        prison for his attempt to detonate a car bomb in Times Square on the evening of May 1, 2010.
        Shahzad had received explosives training in Waziristan, Pakistan, from explosive trainers affiliated
        with Tehrik-e-Taliban, a militant extremist group based in Pakistan.

        On February 22, 2010, Najibullah Zazi pleaded guilty in the Eastern District of New York to a three-
        count superseding information charging him with conspiracy to use weapons of mass destruction
        (explosive bombs) against persons or property in the United States, conspiracy to commit murder in a
        foreign country and providing material support to al-Qaeda. Among other things, Zazi admitted that
        he brought TATP [Triacetone Triperoxide] explosives to New York on September 10, 2009, as part of
        a plan to attack the New York subway system. Zazi faces a maximum statutory sentence of life in
        prison for the first two counts of the superseding information and an additional 15 years in prison for
        the third count of the superseding information.




                                     Terrorism/Anti-Terrorism Convictions [EOUSA]

                                     600




                                     300




                                        0
                                                                                                  FY10 FY10
                                            FY01 FY02 FY03 FY04 FY05 FY06 FY07 FY08 FY09
                                                                                                  Tgt. Act.
                 Terrorism                  29    153   103   118   102   N/A   N/A   N/A   N/A   N/A   N/A
                 Terrorism-related          N/A   251   558   379   409   N/A   N/A   N/A   N/A   N/A   N/A
                 Terrorism/Anti-Terrorism   N/A   N/A   N/A   N/A   N/A   517   459   372   307   N/A   292




Data Definitions: Terrorism convictions were initially based on Executive Office for U.S. Attorneys’
(EOUSA) historical data definitions in EOUSA’s original program categories of International Terrorism and
Domestic Terrorism. Terrorism-related convictions included program categories for terrorism-related hoaxes,
terrorist financing, and anti-terrorism. These categories were implemented after September 11, 2001, and
allowed EOUSA to capture more terrorism-related work. Anti-terrorism cases included defendants who did
not necessarily engage in terrorist-related activity, but whose conduct was prosecuted under other statutes as



                                                    - 10 -
part of an effort to disrupt or prevent possible terrorist attacks. Terrorism convictions were redefined as
Terrorism/Anti-Terrorism convictions in the United States Attorneys’ Case Management System. Terrorism
cases include hoax and financing cases, as well as the traditional domestic and international terrorism cases.
Anti-terrorism cases are those as defined above. In FY 2008, the use of the anti-terrorism program label was
terminated, and a new program category, national security/critical infrastructure, took its place. Like the
former anti-terrorism cases, cases labeled as national security/critical infrastructure are prosecuted against
defendants whose criminal conduct may or may not be terrorist-related, but whose conduct affects national
security or exposes critical infrastructure to potential terrorist exploitation.

Data Collection and Storage: Data are collected from the USA-5 (USA’s online system that tracks personnel
resource data by program category) monthly Resource Summary Report System, which summarizes the use of
personnel resources allocated to USA offices. Data are also being taken from the United States Attorneys’
central case management system, which contains district information including criminal matters, cases, and
appeals.

Data Validation and Verification: The United States Attorneys’ offices are required to submit bi-annually
(April 1 and October 1) case data certifications to the EOUSA. Knowledgeable personnel (such as supervisory
attorneys and legal clerks) in each district review the data.

Data Limitations: As noted above, the United States Attorneys’ offices are required to submit bi-annual case
data certifications to EOUSA. Attorneys and support personnel are responsible for ensuring that local
procedures are followed for maintaining the integrity of the system data. The completeness and accuracy of
case management systems are dependent on the commitment of the management of each United States
Attorney's Office.




                                                 - 11 -
STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People

67% of OBDs Net Costs support this Goal.

  STRATEGIC OBJECTIVE 2.1: Strengthen partnerships for safer communities and enhance the Nation’s

  capacity to prevent, solve, and control crime.

  STRATEGIC OBJECTIVE 2.4: Reduce the threat, trafficking, use, and related violence of illegal drugs.

  STRATEGIC OBJECTIVE 2.6: Uphold the civil and Constitutional rights of all Americans.

  STRATEGIC OBJECTIVE 2.7: Vigorously enforce and represent the interests of the United States in all

  matters over which the Department has jurisdiction.

  STRATEGIC OBJECTIVE 2.8: Protect the integrity and ensure the effective operation of the Nation’s

  bankruptcy system.



Successfully Litigate Cases

Background/Program Objectives: Representing the rights and interests of the American people is a top
priority for the Department of Justice. Among the DOJ components sharing responsibilities to achieve this
goal are the Executive Office of the U.S. Attorneys, the Antitrust, Civil, Civil Rights, Criminal, Environment
and Natural Resources and Tax Divisions.

There are 94 U.S. Attorney Offices located throughout the United States and its territories. Each U.S.
Attorney serves as the chief federal law enforcement officer within his or her judicial district and, as such, is
responsible for the prosecution of criminal cases brought by the federal government; the litigation and defense
of civil cases in which the United States is a party; the handling of criminal and civil appellate cases before
United States Courts of Appeal; and the collection of civil and criminal debts and restitutions owed the federal
government which are administratively uncollectable.

Additionally, the Department has litigators that specialize in the areas of: preserving a competitive market
structure; defending the public fisc against unwarranted claims; protecting civil rights; enforcing federal civil
and criminal statutes; safeguarding the environment; and administrating internal revenue laws.

The Antitrust Division (ATR) promotes and protects economic competition through enforcing and providing
guidance on antitrust laws and principles. These laws apply to virtually all industries and to every level of
business, including manufacturing, transportation, distribution, and marketing.

 The Civil Division (CIV) defends challenges to Congressional statutes, Presidential actions, national security
issues, benefit programs, and energy policies; pursues violators of immigration and consumer protection laws;
and handles thousands of affirmative and defensive cases with billions of dollars at issue related to accident
and liability claims, natural disasters and other unprecedented events, and commercial issues such as
bankruptcy, contract disputes, banking, insurance, patents, fraud, and debt collection.

The Civil Rights Division (CRT) enforces federal statutes prohibiting discrimination in education,
employment, credit, housing, public accommodations and facilities, conditions of confinement in state and
locally operated institutions, national origin, voting, and certain federally funded and conducted programs.
Additionally, CRT enforces criminal civil rights responsibilities for human trafficking and involuntary
servitude statutes, acts of racial, ethnic or religious violence, “color of law” offenses by local and federal law
enforcement officials, and conspiracies to interfere with federally protected rights.

The Criminal Division (CRM) develops, enforces, and supervises the application of all federal criminal laws
(except those specifically assigned to other divisions). The mission of the Criminal Division is to identify and



                                                   - 12 -
respond to critical and emerging national and international criminal threats, and to lead the enforcement,
regulatory, and intelligence communities in a coordinated, nationwide response to reduce those threats. The
Division engages in several functions vital to achieving its mission: investigating and prosecuting significant
criminal cases and matters; providing expert legal advice and training; providing critical law enforcement tools
(i.e., Title III wiretaps); and forging global law enforcement partnerships.

The Environment and Natural Resources Division (ENRD) brings cases against those who violate the nation's
civil and criminal pollution-control and wildlife protection laws. Additionally, the Division defends
environmental challenges to government programs and activities and represents the U.S. in matters concerning
the stewardship of the nation's natural resources and public lands. In addition, the Division litigates cases
concerning Indian rights and claims.

And finally, the Tax Division's (TAX) mission is to enforce the nation’s tax laws fully, fairly, and consistently,
through both criminal and civil litigation, in order to promote voluntary compliance with the tax laws,
maintain public confidence in the integrity of the tax system, and promote the sound development of the law.

Performance Measure: Percent of Cases Favorably Resolved

FY 2010 Target:
Criminal Cases: 90%
Civil Cases: 80%
FY 2010 Actual:
Criminal Cases: 94%
Civil Cases: 85%

Discussion of FY 2010 Results: The collaboration of the U.S. Attorneys’ Offices in each of the FBI’s
Mortgage Fraud Task Forces and Working Groups, together with the targeted mortgage fraud training
provided at the National Advocacy Center resulted in significant accomplishments. For example, in the
Northern District of Georgia, Edward William Farley, was sentenced to 25 years in federal prison on charges
of bank fraud and conspiracy involving mortgage fraud, a real estate investment “Ponzi” scheme with over 100
victims, a check-kiting scheme, and bankruptcy fraud. As a result of the defendant’s lies and manipulations,
the lenders lost millions of dollars in this flip scheme. In an example of investment fraud, in the Southern
District of Florida, Scott Rothstein was sentenced to 50 years in prison in connection with the operation of a
$1.2 billion Ponzi scheme through his defunct law firm Rothstein Rosenfeldt and Adler, P.A (RRA). At the
time of his guilty plea, Rothstein had agreed to forfeit $1.2 billion, including 24 pieces of real property,
numerous luxury cars, boats, and other vessels, jewelry, sports memorabilia, business interests, bank accounts,
and more. In a health care fraud settlement in the Eastern District of Pennsylvania, Novartis Pharmaceuticals
Corporation (NPC) will pay $422.5 million for off-label drug marketing. Criminal information was filed
against NPC for the off-label marketing of the anti-epileptic drug Trileptal. In a separate civil settlement
agreement, NPC agreed to pay the United States and participating states $237.5 million, plus interest, to settle
allegations that it caused invalid claims for payment for Trileptal, Diovan, Tekturna, Exforge, Sandostatin, and
Zelnorm to be submitted to government programs such as Medicare, Medicaid, TRICARE, and the Federal
Employees Health Benefits Program.

The Criminal Division prosecuted and achieved favorable dispositions in FY 2010 in cases covering a wide
range of complex case law. Examples of this work include the successful resolution of a long-running
investigation of Credit Suisse AG for its efforts to help sanctioned countries avoid U.S. banking regulations
(resulting in the forfeiture of $536 million, representing the largest forfeiture ever entered against an entity for
violations of what’s known as the International Emergency Economic Powers Act); the sentencing of a MS-13
gang leader to life in prison for racketeering offenses including the murder of a witness; the indictment of 18
defendants and 95 defendants who pleaded guilty in healthcare fraud cases.




                                                   - 13 -
The Antitrust Division assessed $554.8 million in criminal fines in FY 2010 against antitrust violators. The
Division's investigations into the liquid crystal display panel and air transportation industries yielded
significant fines which help to fund the Department's Crime Victims Fund. In addition, the Division continued
its Economic Recovery Initiative efforts to provide nationwide training and public outreach to ensure
successful results from the implementation of the American Recovery and Reinvestment Act of 2009. On the
civil side, the Division was successful in protecting competition and U.S. consumers by challenging proposed
mergers and agreements in areas as diverse as entertainment event ticketing, digital e-books, credit and debit
card networks, and air transportation.

The Civil Division exceeded its target by defeating billions of dollars in unmeritorious claims, in addition to
the successful defense of suits filed against the government as a result of the government’s policies, laws, and
involvement in commercial activities, domestic and foreign operations and entitlement programs, as well as
law enforcement initiatives, military actions, and counterterrorism efforts. The Division also pursued
affirmative litigation, bringing suits on behalf of the United States, which resulted in the return of nearly three
billion dollars to the Treasury, Medicare, and other entitlement programs.

The Civil Rights Division has made significant strides in fulfilling its mission to vigorously enforce the civil
rights of all Americans. The cornerstone of this effort is the Division’s commitment to fair, vigorous, and
evenhanded enforcement of all of the laws within its authority, including: in the wake of the foreclosure crisis,
CRT substantially increased efforts to enforce the fair lending laws, including through the establishment of a
new fair lending unit, and obtained a $6.1 million settlement with AIG subsidiaries resolving allegations of
discrimination against African-American borrowers—the largest fair lending settlement ever secured by DOJ;
filed 52 Fair Housing Act (FHA) lawsuits and entered into 54 consent decrees, including the largest monetary
settlement of rental discrimination claims DOJ has ever obtained under the FHA; vigorously enforced the
Supreme Court’s 1999 decision in Olmstead v. L.C, which prohibits the unnecessary institutionalization of
people with disabilities; robustly implemented the Project Civic Access (PCA) initiative, a wide-ranging effort
to ensure that all public facilities and programs in cities, counties, towns, and villages throughout the United
States are accessible to people with disabilities; obtained significant settlements affecting thousands of
institutionalized inmates and youth in juvenile justice facilities, including a landmark settlement of conditions
in one of the largest jails in the country; opened more than 80 investigations under the newly enacted Hate
Crimes Prevention Act, filed record numbers of labor trafficking cases including cases of unprecedented scope
and impact, and filed numerous cases alleging police abuse and other official misconduct; and promoted the
expeditious resolution of service members’ employment discrimination complaints through the Uniformed
Services Employment and Reemployment Rights Act (USERRA) fast-track program.

The Environment and Natural Resources Division made significant progress in addressing civil litigating
activities involving the enforcement of environmental statutes such as the Comprehensive Environmental
Response, Compensation, and Liability Act. Specifically, the Division secured the largest recovery ever of
funds for hazardous waste cleanup and environmental restoration through the bankruptcy reorganization of
American Smelting and Refining Company LLC, known as ASARCO. The Company and its predecessors
operated in the mining, milling, and smelting industries for more than 100 years, leaving a legacy of
environmental contamination at more than 80 sites in 19 states. ASARCO’s 2005 bankruptcy is the largest
environmental bankruptcy in history, in terms of both number of sites and the amount of the company’s
liability. The ASARCO reorganization plan includes total payments of $1.67 billion to the United States,
various trusts, and 14 different states. Much of the money paid to the U.S. will be placed in special accounts
in the Superfund for the Environmental Protection Agency to pay for future cleanup work. It also will be
placed into accounts at the Departments of Agriculture and the Interior to pay for natural resource restoration.

The Tax Division continues to work hand-in-hand with the Internal Revenue Service (IRS) to combat the
serious problem of non-compliance with our tax laws by US taxpayers using secret offshore accounts – a
problem that a 2008 Senate report concluded costs the US Treasury at least $100 billion annually. As part of
the deferred prosecution agreement the Tax Division negotiated in 2009 with UBS AG, Switzerland’s largest
bank, as well as a 2009 agreement negotiated among the US, UBS, and the Swiss government to settle a civil



                                                   - 14 -
summons enforcement proceeding brought by the Tax Division, the IRS is receiving, from UBS and from the
Swiss, account information about thousands of the most significant tax cheats among the US taxpayers who
maintain secret Swiss bank accounts. The prosecution results so far have been encouraging: To date,
approximately 150 grand jury investigations of UBS clients have been initiated, six cases have been charged
and are awaiting trial, 12 guilty pleas have been entered and a number of facilitators who helped clients hide
assets offshore have been indicted. In addition, grand jury investigations have been opened into six additional
offshore banks across the world. Moreover, the IRS credits these two agreements with prompting a huge
increase in the number of taxpayers – nearly 18,000 in the past year, in contrast to fewer than 100 in a typical
year – who have “come in from the cold” and voluntarily disclosed to the IRS their previously hidden foreign
accounts and who have also agreed to pay hundreds of millions of dollars to the US Treasury.




                                    Percent of Cases Favorably Resolved
                  100%

                      75%

                      50%

                      25%

                      0%
                                                                                            FY10    FY10
                            FY01   FY02   FY03   FY04   FY05   FY06   FY07   FY08    FY09
                                                                                            Tgt.    Act.
              Criminal      91%    91%    92%    91%    91%    92%    92%     92%    92%     90%    94%
              Civil         86%    86%    87%    85%    84%    83%    83%     79%    83%     80%    85%




Data Definition: Cases favorably resolved include those cases that resulted in court judgments favorable to
the government, as well as settlements. For merger cases, favorably resolved data includes: abandoned
mergers, mergers “fixed,” or mergers with consent decrees. Non-merger cases favorably resolved also includes
instances where practices changed after the investigation and complaints filed with consent decrees. The data
set includes non-appellate cases closed during the fiscal year.

Data Collection and Storage: Data are currently captured within each component’s automated case
management system and companion interface systems. Representatives from each component providing data
for this measure have been participating in a working group to build a litigation case management system
(LCMS) to collect and manage case information. Until LCMS is implemented, the following information
about this measure should be noted. Currently, cases worked on by more than one component are included in
the totals from CRM, CRT, ENRD, and EOUSA. Also, the court’s disposition date is used for reporting
purposes for ATR, CIV, CRM, CRT, and ENRD; however, EOUSA and TAX use the date it is entered into
their current case management system. Additionally, CIV counts at the party level; CRM, ENRD, and EOUSA
count cases at the defendant level; CRT and TAX count Civil and Criminal cases. Lastly, ATR includes
Criminal, Civil Merger, and Civil Non-Merger; ENRD includes affirmative, defensive, criminal, and
condemnation cases in their totals.

Data Validation and Verification: Each component implements their individual methodology for verifying
data; however, in general, case listings and reports are reviewed by attorney managers for data completeness
and accuracy on a routine basis. Batch data analysis and ad hoc reviews are also conducted.




                                                  - 15 -
Data Limitations: Data quality suffers from the lack of a single DOJ case management system and a
standardized methodology for capturing case related data. Due to the inherent variances in data collection and
management, cases may refer to cases or individuals. In addition, due to reporting lags, case closures for any
given year may be under or over-reported. To remedy these issues, the Department is developing a LCMS to
standardize methodologies between the components and capture and store data in a single database. Actual
data are not available due to technical and policy improvements that were not implemented until FY 2003.
Lastly, EOUSA data does not include information for the month of September 2005 for the Eastern District of
Louisiana due to Hurricane Katrina.




                                                 - 16 -
Reduce Drug Availability

Background/Program Objectives: The Department focuses its drug law enforcement efforts on reducing the
availability of drugs by disrupting and dismantling the largest drug trafficking organizations and related money
laundering networks operating internationally and domestically, including those on the Attorney General’s
Consolidated Priority Organization Target (CPOT) List. The first CPOT List was issued in September 2002
and is reviewed and updated bi-annually. The List identifies the most significant international drug trafficking
and money laundering organizations and those primarily responsible for the nation’s drug supply. The
Attorney General has designated the Organized Crime Drug Enforcement Task Force (OCDETF) Program as
the centerpiece of DOJ’s drug supply reduction strategy. The Program coordinates multi-agency and multi-
jurisdictional investigations targeting the most serious drug trafficking threats. The OCDETF Program is
responsible for coordinating the annual formulation of the CPOT list. The OCDETF Program functions
through the efforts of the United States Attorneys; elements of the Department’s Criminal Division; the
investigative, intelligence, and support staffs of the Drug Enforcement Administration; the Federal Bureau of
Investigation; the Bureau of Alcohol, Tobacco, Firearms and Explosives; the U.S. Marshals Service; U.S.
Immigration and Customs Enforcement; the U.S. Coast Guard; and the Internal Revenue Service. The
OCDETF agencies also partner with numerous State and local law enforcement agencies.

The goal of each OCDETF investigation is to determine connections among related investigations nationwide
in order to identify and dismantle the entire structure of the drug trafficking organizations, from international
supply and national transportation cells, to regional and local distribution networks. A major emphasis of the
Department’s drug strategy is to disrupt the traffickers’ financial dealings and to dismantle the financial
infrastructure that supports these organizations. The OCDETF Program has the greatest impact upon the flow
of drugs through this country when it successfully incapacitates the entire drug network by targeting and
prosecuting its leadership and seizing the profits that fund continued operations.

Performance Measure: CPOT-Linked Drug Trafficking Organizations Disrupted and Dismantled

FY 2010 Target:
Dismantled: 149
Disrupted: 281

FY 2010 Actual:
Dismantled: 176
Disrupted: 365

Discussion of FY 2010 Results: The Department achieved unprecedented results during FY 2010 in
dismantling and disrupting CPOT-linked drug trafficking organizations. The Department dismantled 176
CPOT-linked organizations in FY 2010, exceeding its target by 18%. This is a 23% increase over the 143
dismantled in FY 2009, the highest number reported prior to FY 2010. The Department disrupted 365 CPOT-
linked organizations in FY 2010, exceeding its target by 30%. This is a 33% increase over the 274 reported in
FY 2009 and a 22% increase over the 299 reported in FY 2008, the highest number reported prior to FY 2010.

During FY 2010, in addition to making important gains against CPOT-linked organizations,
the Department continued to achieve significant successes against the CPOTs themselves. These results
against CPOT targets have included the dismantlement of a dangerous Colombian drug kingpin who
ruled a vast drug empire and moved millions of dollars worth of cocaine and heroin intended for the
United States and Europe and disruptions to leadership of the Sinaloa Cartel, Los Zetas, a significant
global heroin drug trafficker in Afghanistan known to fund the terrorist activities of the Taliban, and
a major Jamaican Narcotic trafficker. Law enforcement activity targeting these CPOTs involved




                                                  - 17 -
complex and coordinated intelligence driven investigations, with the exceptional cooperation of U.S.
law enforcement agencies and international governments.

The Department’s FY 2010 unprecedented successes dismantling or disrupting 541 CPOT-linked drug
trafficking organizations, a 29% increase over the 419 dismantled or disrupted in FY 2009, the highest number
reported prior to FY 2010, as well as the significant enforcement actions against CPOTs themselves have
resulted in keeping multi-ton quantities of illegal drugs such as cocaine, heroin, marijuana and
methamphetamine from ever entering the United States.


                      CPOT-Linked Drug Trafficking Organizations Disrupted and Dismantled

                                    225

                                    150

                                     75


                                       0
                                                                                                     FY10    FY10
                                           FY03    FY04    FY05    FY06     FY07    FY08     FY09
                                                                                                     Tgt.    Act.
                           Dismantled       20      36      121      93      86      104     143      149     176
                           Disrupted        62      159     204     189      169     299     276      281     365

   Note: FY 2009 actual numbers have been updated and reflect data reported in FY 2011 Budget and Performance Summary.



Data Definition: An organization is considered linked to a CPOT, if credible evidence exists of a nexus
between the primary investigative target and a CPOT target, verified associate, or component of the CPOT
organization. Disrupted means impeding the normal and effective operation of the targeted organization, as
indicated by changes in the organizational leadership and/or changes in methods of operation. Dismantled
means destroying the organization's leadership, financial base, and supply network such that the organization
is incapable of reconstituting itself.

Data Collection and Storage: For this measure, OCDETF reviews all of the cases worked by FBI and DEA.
When there are cases that both agencies work, they are counted as one case in the consolidated numbers
reported here in the OBD MD&A and the Department’s Performance and Accountability Report. This
procedure is in place to prevent double counting in Department-level reports.

Investigations may be linked to a CPOT organization at any time during the investigation. Once the link is
verified, a specific code or other identifier is assigned to the investigation. Accordingly, data on this
performance measure may lag behind actual identification of the link by the investigative agency. The
investigation is tracked as “CPOT-linked” by the agency and within the OCDETF Management Information
System.

Data Validation and Verification: The CPOT List is updated semi-annually. Each OCDETF agency has an
opportunity to nominate targets for addition to/deletion from the List. Nominations are considered by the
CPOT Working Group (made up of mid-level managers from the participating agencies). Based upon the
Working Group’s recommendations, the OCDETF Operations Chiefs decide which organizations will be
added to/deleted from the CPOT List.

Once a CPOT is added to the List, OCDETF investigations can be linked to that organization. The links are
reviewed and confirmed by OCDETF field managers using the OCDETF Fusion Center, agency databases,
and intelligence information. Field recommendations are reviewed by the OCDETF Executive Office. In



                                                             - 18 -
instances where a link is not fully substantiated, the sponsoring agency is given the opportunity to follow-up.
Ultimately, the OCDETF Executive Office "un-links" any investigation for which sufficient justification has
not been provided. When evaluating disruptions/dismantlements of CPOT-linked organizations, OCDETF
verifies reported information with the investigating agency’s headquarters.

Data Limitations: Investigations of CPOT-level organizations are complex and time-consuming, and the
impact of disrupting/dismantling such a network may not be apparent immediately. In fact, data may lag
behind enforcement activity. For example, a CPOT-linked organization may be disrupted in one FY and
subsequently dismantled in a later year when law enforcement permanently destroys the organization’s ability
to operate.

Performance Measure: DISCONTINUED MEASURE: DOJ’s Reduction in the Supply of Drugs Available
for Consumption in The U.S.

FY 2010 Target: Progress toward establishing baseline
FY 2010 Actual: See Discussion of FY 2010 Results

Discussion of FY 2010 Results: The Department will no longer report on this measure. Measuring reduction
in the drug supply is a complex process because supply reduction is a reflection of a number of factors. Drug
seizures, eradication efforts, precursor chemical interdictions, cash and asset seizures, increased
border/transportation security, international military operations, social and political forces, climatic changes,
and even natural disasters all impact the drug supply at any given time. The Department’s strategy focuses on
incapacitating entire drug networks by targeting their leaders for arrest and prosecution, by disgorging the
profits that fund the continuing drug operations, and by eliminating the international supply sources. Although
the Department’s efforts ultimately have a lasting impact upon the flow of drugs in the United States, it is not
possible to confidently gauge base amounts for the supply of illegal drugs available for consumption in the
United States in order to estimate a valid reduction percentage due to the numerous factors involved.
Therefore, the Department is no longer planning to report the percentage amount of its reduction of the supply
of illegal drugs available for consumption in the United States.




                                                  - 19 -
Provide Oversight to the Bankruptcy Process

Background/Program Objectives: The U.S. Trustee Program (USTP) was established nationwide (except in
North Carolina and Alabama) in 1986 to separate the administrative functions from the judicial responsibilities
of the bankruptcy courts and to bring accountability to the bankruptcy system. The USTP protects and
preserves the integrity of the bankruptcy system by ensuring that parties comply with the law and that
bankruptcy estate assets are properly handled. The USTP appoints Trustees who serve as fiduciaries for
bankruptcy estates and administer cases filed under Chapter 7 and Chapter 13. The U.S. Trustee regulates and
monitors the activities of these private trustees and ensures their compliance with fiduciary standards. To
promote the effectiveness of the bankruptcy system and maximize the return to creditors, the Department
targets and reports the percent of assets/funds returned to creditors.

Performance Measure: Percent of Assets/Funds Returned to Creditors for Chapter 7 and Chapter 13

FY 2009 Target: Chapter 7: 58%
                    Chapter 13: 86%
FY 2009 Actual: Chapter 7: 56%
                    Chapter 13: 82%
FY 2010 Target: Chapter 7: 58%
                    Chapter 13: 84%
FY 2010 Actual: Data will not be available until FY 2011 because of the need to audit data submitted by
private trustees prior to reporting.

Discussion of FY 2010 Results: The USTP’s goal is to return to creditors the maximum amount possible,
recognizing that certain legitimate expenses must be paid, and that returning 100 percent of assets will never
be possible. Funds not distributed may include private trustee compensation, professional fees and costs
associated with administering the bankruptcy case. These costs directly impact on the amount of assets that
are available to be returned.

The USTP periodically reviews and reevaluates its performance targets and the Program’s efforts toward
reaching them. Beginning in FY 2008, the percentage of assets returned to creditors for chapter 13 bankruptcy
filings was increased to 86% to reflect a more aggressive target. The actual percentage of funds returned to
creditors was 84.2% in FY 2008 and 82% in FY 2009. A detailed analysis revealed that the lower percentage
of assets returned is due to a decrease in assets available for disbursement while fees paid to debtor attorneys
increased by approximately 15% over FY 2008, reducing amounts that otherwise could be distributed to
creditors. The increased attorney fees account for the majority of the decrease in the amount available for
distribution to creditors. Upon reevaluation of this measure, the target for FY 2010 and subsequent years was
revised to 84%, reflecting a more realistic percentage of returns.




                                                 - 20 -
                                                   Percent of Assets/Funds
                                                  Returned to Creditors for
                                                  Chapter 7 and Chapter 13
                        100%


                         75%


                         50%


                         25%


                          0%
                                                                                 FY09    FY09 FY10   FY10
                                FY01 FY02 FY03    FY04 FY05   FY06   FY07 FY08
                                                                                  Tgt.   Act. Tgt.    Act
                   Chapter 7    59%   57%   57%   58%   59%   63%    61%   60%   58%     56%   58%   TBD
                   Chapter 13   86%   86%   85%   86%   86%   87%    86%   84%   86%     82%   84%   TBD




Data Definition: Chapter 7 bankruptcy proceedings are those where assets that are not exempt from creditors
are collected and liquidated (reduced to money). Chapter 7 percentages are calculated by dividing the
disbursements to secured creditors, priority creditors, and unsecured creditors by the total disbursements for
the fiscal year. In Chapter 13 cases, debtors repay all or a portion of their debts over a three to five year
period. Chapter 13 percentages are based on the Chapter 13 audited annual reports by dividing the
disbursements to creditors by the total Chapter 13 disbursements.

Data Collection and Storage: The data are collected on an annual or semi-annual basis. For Chapter 7 cases,
the USTP receives trustee distributions reports as part of the Final Account on each Chapter 7 case closed
during the year. The Chapter 7 data are aggregated on a nationwide basis and reported twice a year in January
and July. Chapter 13 data are gathered from the standing Chapter 13 trustees’ annual reports on a fiscal year
basis.

Data Validation and Verification: Data on these annual reports are self-reported by the trustees. However,
each trustee must sign the reports certifying their accuracy. In Chapter 7 cases, independent auditors
periodically review the annual reports, in addition to the USTP’s on-site field examinations. Additionally,
USTP Field Office staff review the trustee distribution reports. The Field Office and Executive Office staff
performs spot checks on the audited reports to ensure that the coding for the distributions is accurate. They
also verify whether there have been any duplicate payments. Finally, the USTP conducts biannual
performance reviews for all Chapter 7 trustees. In Chapter 13 cases, independent auditors must audit each
report. This indirectly provides an incentive for trustees to accurately report data. In addition, the Executive
Office staff reviews the combined distribution spreadsheet to ensure that the amounts stated coincide with
what is reported in the audit reports.

Data Limitations: Out-year performance cannot be accurately projected, as the USTP has no reliable method
of calculating the disbursements of future bankruptcy cases. Additionally, data are not available until January
(Chapter 7) and April (Chapter 13) following the close of the fiscal year because of the need to audit data
submitted by private trustees prior to reporting.




                                                   - 21 -
Improve Criminal Justice System Capabilities

Background/Program Objectives: The principle mission of the Office on Violence Against Women (OVW)
is to provide federal leadership in developing the nation’s capacity to reduce violence against women through
the implementation of the Violence Against Women Act (VAWA). OVW administers financial and technical
assistance to communities around the country that are creating and enhancing programs, policies, and practices
aimed at ending sexual assault, domestic violence, dating violence, and stalking.

The VAWA was designed to improve criminal justice responses to sexual assault, domestic violence, dating
violence, and stalking and to increase the availability of services for victims of these crimes. The VAWA
requires a coordinated community response to violence against women encouraging jurisdictions to bring
together a diverse group of individuals and organizations to share information and to use their distinct roles to
improve community responses to these crimes. The group often includes: victim advocates, police officers,
prosecutors, judges, probation and corrections officials, health care professionals, leaders within faith
communities, survivors of violence against women, and others. The federal law takes a comprehensive
approach to fighting violence against women – combining new penalties to prosecute offenders with programs
to aid victims of such violence.

Performance Measure: Number of people trained (to improve responses to crimes of sexual assault, domestic
violence, dating violence, and/or stalking)

FY 2010 Target: 226,237
FY 2010 Actual Performance: 314,246

Discussion of FY 2010 Results: OVW exceeded its target for the number of people trained to improve
responses to crimes of sexual assault, domestic violence, dating violence, and/or stalking.


                                           Number of People Trained [OVW]

                                                          2 92,117                  314,246
      300,00 0                                                        276,646

                                            229,515                                          226,237
                 208,608
                              188,815
      200,00 0

                                                                                                        Actual
                                                                                                        Target
      100,00 0




            0
                  FY05          FY06         FY07           FY08         FY09         FY10




Data Definition: Training is defined as providing information on sexual assault, dating violence, domestic
violence, and stalking that enables a person to improve their response to victims/survivors as it relates to their
role in the system. Training is not an educational presentation or prevention education. Education means
providing general information that will increase public awareness of sexual assault, dating violence, domestic
violence, and stalking. Some examples of education include: presentations to community groups, men’s


                                                      - 22 -
groups, parents/guardians, victims/survivors etc. Students, community members, and victims are not reported
as people trained, since they are not professionals responding to victims. All OVW grantees and subgrantees
who provide training must report to OVW the number of OVW funded staff members trained or any trainings
supported by OVW funding. OVW-funded staff attending training events are not counted in this number.

Data Collection and Storage: Data are collected through semi-annual and annual subgrantee progress reports
and on-site monitoring. Data are stored in OVW office files and in computer files. The training population
includes law enforcement officers, victim advocates, attorneys, prosecutors, judges and court personnel,
corrections officers, and other multi-disciplinary professionals.

Data Validation and Verification: The OVW validates and verifies performance measures through a review
of progress reports submitted by grantees, telephone contacts, and on-site monitoring of grantee performance
by grant managers. Beginning in February 2007, this measure was updated to reflect information submitted to
the Office of Management and Budget for program assessment. Previously, the measure was split between the
trainings performed by discretionary grantees versus formula program grantees. The updated measure is
OVW-wide (across all programs).

Data Limitations: Data are collected through grantee and sub-grantee progress reports which cause data to
lag one year. The time lag is due to the number of steps involved in the data collection and data cleaning and
analyzing process. First, grantees submit their progress report data (semi-annually for all discretionary grant
programs or annually for the Stop Violence Against Women Formula Grant and the Sexual Assault Services
Program after each reporting period [due 30 days after the reporting period for discretionary programs and 90
days after the reporting period for the STOP Formula grant program]). In most six-month periods, OVW will
receive over 1,000 progress reports. Reports are reviewed by OVW Program Specialists for completeness,
accuracy, and whether the grantee is meeting the goals and objectives of the grant project. If questions arise
regarding the report, the grantee is contacted for clarification or additional information. This step takes 60
days. After OVW approval of all the reports, the Office of Justice Program prepares and transfers the bulk data
to the University of Maine, Muskie School. (In 2001, OVW entered into a cooperative agreement with the
Muskie School of Public Service’s Catherine E. Cutler Institute for Child and Family Policy [the Muskie
School] to develop and implement state-of-the-art reporting tools to capture the effectiveness of VAWA grant
funding. The Muskie School handles the data collection, data cleaning, and data analysis of all grantee and
subgrantee reports). The Muskie School then takes a few months to clean and analyze this raw data for each
grant program. The data reported above is the latest clean data available, calendar year January-December
2009.




                                                 - 23 -
Support Community Policing Initiatives

Background/Program Objectives: The Office of Community Oriented Policing Services (COPS) was
established in 1994 to assist law enforcement agencies in enhancing public safety through the implementation
of community policing strategies. The resources offered by the COPS Office to state, local, and tribal law
enforcement agencies strengthen partnerships for safer communities and increase the capacity of agencies to
prevent, solve, and control crime through the implementation of community policing strategies. COPS Office
community policing resources and initiatives can be grouped into two primary lines of business: Advancing
Community Policing through Grant Resources; and Advancing Community Policing through Knowledge
Resources.

The Advancing Community Policing through Grant Resources line of business provides law enforcement
agencies with grant resources focused on increasing the capacity of those agencies to implement community
policing strategies. These strategies are focused on the three primary elements of community policing:
1) developing community/law enforcement partnerships; 2) developing problem-solving and innovative
approaches to crime issues; and 3) implementing organizational change to build and strengthen community
policing infrastructure. COPS grant funding has provided state, local, and tribal law enforcement agencies
with grants for equipment, technology, officers, and training. Since 1994, COPS grant programs have
provided funding to over 13,000 of the nation’s 18,000 law enforcement agencies.
Similarly, the Advancing Community Policing through Knowledge Resources line of business provides law
enforcement agencies as well as other customers (i.e., community groups, non-profit organizations, academics,
etc.) with knowledge resources focused on increasing the capacity of law enforcement agencies to implement
community policing strategies within the three primary elements of community policing. The knowledge
resources that are developed and distributed by the COPS Office include training, technical assistance,
publications, webcasts podcasts, conferences and roundtables, best practices that are disseminated through
conference participation and trade press articles, and findings from program evaluations. These knowledge
resources assist in preparing officers and their departments to meet challenges by using community policing
strategies, as well as promoting collaboration between law enforcement and communities to solve problems
locally.

Performance Measure: Effectiveness rating of COPS resources in increasing community policing capacity

FY 2010 Target: 76
FY 2010 Actual Performance: 75.5
Discussion of FY 2010 Results: The COPS Office narrowly missed the target for FY 2010. The lower than
expected results for COPS resources can be attributed to the responses for Publication Resources. We are
currently redesigning our products to include a Pocket Guide that may more closely meet our customer’s
needs. In FY 2011, the COPS Office will conduct two new surveys for training and publications. This will not
only allow us to match the outcomes to a specific publication, but provide more discrete data to inform our
understanding of the annual survey results. In addition, the results will guide enhancements to our product
design process.




                                                - 24 -
                 Effectiveness Rating of Knowledge Resources in Increasing Community Policing
                                                   Capacity

      100.0

                                                77.0            78.5
                 73.0           75.0                                            75.5 76.0




       50.0                                                                                          Actual
                                                                                                     Target



        0.0
                 FY06            FY07            FY08            FY09            FY10




Data Definition: Content-based knowledge resources include publication products (i.e., Problem Oriented
Policing guides for police, toolkits, white papers, program evaluations, etc.). Event-based knowledge resources
include training (classroom and web-based), technical assistance, community policing conferences,
roundtables, etc. A knowledge resource recipient is any customer that receives a content-based knowledge
resource product from the COPS Office or attends a knowledge resource event.

Data Collection and Storage: The COPS Office, through the Federal Consulting Group, has asked the CFI
Group, a third party independent research firm, to conduct a survey to determine how COPS knowledge
resources have increased the capacity of customers to implement community policing strategies. The
effectiveness rating is on a scale of 0 to 100 points with 100 being the highest rating. Law enforcement
personnel who received training and technical assistance from COPS sponsored training providers within 4 to
6 months before the survey is conducted and law enforcement personnel who ordered COPS knowledge
products/publications in the 6 months prior to the survey are included in the survey sample. The data is
collected online and stored electronically.

Data Validation and Verification: The data collected is validated electronically as well as by the personnel
from the independent research firm. The research firm completes a comprehensive statistical analysis of the
survey data and sample sizes to ensure that the data provided to the COPS Office is both accurate and reliable.

Data Limitations: The data is collected annually in July and the final survey results are provided to the
COPS Office by the end of August. The only potential data limitation would be a low response rate to the
survey. Thus far, the COPS Office has received a high response rate to the survey.




                                                 - 25 -
STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice

29% of OBDs Net Costs support this Goal.


  STRATEGIC OBJECTIVE 3.3: Provide for the safe, secure, and humane confinement of detained
  persons awaiting trial and/or sentencing and those in the custody of the Federal Prison System.
  STRATEGIC OBJECTIVE 3.5: Adjudicate all immigration cases promptly and impartially in
  accordance with due process.



Provide for the Safe, Secure, and Humane Confinement of Detainees

Background/Program Objectives: The mandate of the Office of the Federal Detention Trustee (OFDT) is to
manage resource allocations, exercise financial supervision of detention operations, and set government-wide
detention policy. OFDT has overall management and responsibility for federal detention services relating to the
detention of federal prisoners in the custodial jurisdiction of the U.S. Marshals Service (USMS).

Costs begin at the time a prisoner is brought into USMS custody and extend through termination of the criminal
proceeding and/or commitment to the Bureau of Prisons (BOP). Detention bed space for federal detainees is
acquired as effectively and efficiently as possible through: (1) federal detention facilities, where the government
pays for construction and operation of the facility through the BOP; (2) Intergovernmental Agreements (IGA)
with State and local jurisdictions who have excess prison/jail bed capacity and where a daily rate is paid for the
use of the bed; and, (3) private jail facilities where a daily rate is paid.

In recent years, DOJ has not been able to rely as much on IGAs and federal facilities to meet the surge in the
detention population as State and local governments are increasingly using their facilities for their own detention
requirements. With space unavailable in areas where more federal bed-space is needed, DOJ has increasingly
turned to the private sector.

Ensuring safe, secure, and humane confinement for federal detainees is critically important. To address the
variance between federal; State and local government; and privately owned and managed facilities, the federal
Performance-Based Detention Standards were developed. To ensure compliance, federal contract vehicles are
written or modified to reflect federal Performance-Based Detention Standards with private contractor
performance compensation based on their ability to demonstrate compliance. The comprehensive Quality
Assurance Review Program provides various methodologies for assessing a facility’s operations to ensure that
the safe, secure, and humane confinement criteria are met, as well as addressing Congress’ concerns for public
safety as it relates to violent prisoners (e.g., Interstate Transportation of Dangerous Criminals Act, also known as
Jenna’s Act).

Performance Measure: Per Day Jail Costs
       FY 2010 Target: $70.98
       FY 2010 Actual: $70.59

Discussion of FY 2010 Results: Performance was in line with expectation. There were no anomalies that
caused increases in the per diem rate.




                                                  - 26 -
                                                Per Day Jail Costs
                                                                                                     $70.98
     FY10                                                                                            $70.59
     FY09                                                                                         $69.01
     FY08                                                                                       $67.47
     FY07                                                                                   $64.40
     FY06                                                                              $62.73
     FY05                                                                              $61.92
     FY04                                                                             $61.87
     FY03                                                                            $60.87
     FY02                                                                           $60.07
     FY01                                                                          $59.01

        $0.00                         $25.0 0                        $50.00                           $75.00




Data Definition: Per Day Jail Cost is actual price paid (over a 12-month period) by the USMS to house
federal prisoners in non-federal detention facilities. Average price paid is weighted by actual day usage at
individual detention facilities.

Data Collection and Storage: Data describing the actual price charged by State, local, and private detention
facility operators is maintained by the USMS in their Prisoner Tracking System (PTS) and it is updated on an as-
needed, case-by-case basis when rate changes are implemented. Rate information for specific facilities is
maintained by USMS headquarters staff. For those private facilities where OFDT has a direct contract for bed
space, the effective per diem is calculated using information obtained from OFDT’s Procurement Division. In
conjunction with daily reports to OFDT of prisoners housed, OFDT compiles reports describing the price paid
for non-federal detention space on a weekly and monthly basis. Data are reported on both district and national
levels.

Data Validation and Verification: Data reported to OFDT are validated and verified against monthly reports
describing district-level jail utilization and housing costs prepared by the USMS. For direct contracts, contract
terms are verified by OFDT Procurement staff.

Data Limitations: The only limitation is ensuring that USMS district level input into PTS occurs in a timely
and correct manner.




                                                    - 27 -
Adjudicate Immigration Cases Promptly and Impartially


Background/Program Objectives: The Executive Office for Immigration Review (EOIR) is an independent
agency with jurisdiction over various immigration matters relating to the Department of Homeland Security
(DHS), aliens, and other parties. EOIR comprises three adjudicating components: the Board of Immigration
Appeals (BIA), the Office of the Chief Immigration Judge, including the immigration courts, and the Office of
the Chief Administrative Hearing Officer. EOIR’s mission is to be the best administrative tribunal possible,
rendering timely, fair, and well-considered decisions in the cases brought before it. EOIR’s ability to achieve
its mission is critical to the guarantee of justice and due process in immigration proceedings, and public
confidence in the timeliness and quality of EOIR adjudications. Included in this context are the timely grants
of relief from removal in meritorious cases, the expeditious removal of criminal and other inadmissible aliens
where no relief is available. To assure mission focus, EOIR has identified adjudication priorities and set
specific time frames for most of its proceedings. These priorities include court cases involving criminal and
other detained aliens, and adjudicative time frames for all detained appeals filed with the BIA. These targets
are related to percentages of cases actually completed.

Performance Measure: Percent of EOIR Priority Cases Completed Within Established Time Frames
       FY 2010 Target: 85% for IHP and detained immigration court cases and 90% for detained appeals
       FY 2010 Actual:
       Immigration Court Institutional Hearing Program Cases Completed Prior to Release from

       Incarceration: 87%

       Immigration Court Detained Cases Completed Within 60 Days: 89%

       BIA Detained Appeals Completed Within 150 Days: 93%


Discussion of FY 2010 Results: Through careful management of EOIR’s resources, the agency exceeded all
three of its goals for FY 2010. As part of the Department’s high priority performance goal initiative, EOIR
has placed its focus on hiring immigration judges so that the agency is able to continue to meet its large
detained caseload. EOIR also used video teleconferencing when appropriate to handle the detained
immigration court docket, including Institutional Hearing Program cases. The BIA also continued to manage
its resources carefully to ensure that it exceeded its goal of completing 90 percent of detained appeals within
150 days. EOIR will continue to look at innovative ways to manage its detained docket, including close
coordination with DHS.




                  Percent of EOIR Priority Cases Completed Within Established Time Frames

                100%


                 90%


                 80%


                 70%
                                                                                                   FY10    FY10
                        FY01    FY02     FY03    FY04     FY05    FY06    FY0 7   FY08    FY 09
                                                                                                   Tgt.    Act.
     Asylum             91%     91%      91%     89%      92%     95%     90%      86%     82%      N/A     N/A
     IHP                89%     84%      86%     88%      89%     92%     86%      91%     90%     85%      87%
     Detained Cases     83%      84%     88%     88%      91%     92%     89%      90%     88%     85%      89%
     Detained Appeals    N/A     N/A     N/A      N/A     N/A     N/A     97%      96%     96%     90%      93%




                                                 - 28 -
Data Definition: The EOIR has defined its priority caseload as two types of immigration court cases
(Institutional Hearing Program, and detained cases) and one type of Board of Immigration Appeals case
(detained appeals). The Institutional Hearing Program (IHP) is a collaborative effort between EOIR, DHS and
various federal, State, and local corrections agencies. The program permits immigration judges to hold
removal hearings inside correctional institutions prior to the alien completing his or her criminal sentence.
Detained aliens are those in the custody of DHS or other entities.

Data Collection and Storage: Data are collected from the Case Access System for EOIR (CASE), a
nationwide case-tracking system at the trial and appellate levels.

Data Validation and Verification: All data entered by courts nationwide are instantaneously transmitted and
stored at EOIR headquarters, which allows for timely and complete data. Data are verified by on-line edits of
data fields. Headquarters and field office staff have manuals that list the routine daily, weekly, and monthly
reports that verify data. Data validation is also performed on a routine basis through data comparisons
between EOIR and DHS databases.

Data Limitations: None known at this time.


Performance Measure: DISCONTINUED MEASURE: Immigration Court Expedited Asylum Cases
Completed Within 180 Days
       FY 2010 Target: N/A
       FY 2010 Actual: N/A

Discussion of FY 2010 Results: At the end of FY 2009, EOIR discontinued this measure. The agency shifted
its highest priority to the detained caseload. These cases are the highest priority for EOIR because individuals
involved in these proceedings are being detained at the expense of the United States government.




                                                 - 29 -
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Internal Control Program
The OBDs management continues to support and commit resources to Departmental component internal
review programs. The objective of the OBDs internal control program is to provide reasonable assurance that
operations are effective, efficient, and comply with applicable laws and regulations; financial reporting is
reliable; and assets are safeguarded against waste, loss, and unauthorized use. OBDs management identifies
issues of concern through a strong network of oversight councils and internal review teams. These include the
Justice Management Division’s (JMD) Internal Review and Evaluation Office and Quality Control and
Compliance Group and the Executive Office of United States Attorneys’ Evaluation and Review Staff. OBDs
management also considers reports issued by the Office of the Inspector General (OIG) in its evaluation of
internal control.

The OBDs internal control has significantly improved through the corrective actions implemented by
management. The OBDs commitment to accountability, transparency, and compliance with applicable laws
and regulations is evidenced by efforts to establish reasonable controls, make sound determinations on
corrective actions, and verify and validate the results. For example, on a quarterly basis, OBDs components
review and certify their obligations to the JMD Finance Staff and report on their financial operations, systems,
and controls. This commitment is further evidenced by the many control improvements and significant actions
taken by Departmental leadership in response to OMB initiatives and OIG recommendations.

MANAGEMENT ASSURANCES

Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act (FMFIA or Integrity Act) requires federal agencies to establish
systems of internal accounting and administrative controls, conduct ongoing evaluations of the adequacy of
these systems, and report annually on the effectiveness of controls protecting the integrity of federal programs
(as required by FMFIA Section 2) and whether financial management systems conform to related requirements
(as required by FMFIA Section 4).

The objectives of the Integrity Act are to provide reasonable assurance that obligations and costs are in
compliance with applicable laws; funds, property, and other assets are safeguarded against waste, loss,
unauthorized use, or misappropriation; and revenues and expenditures are properly recorded and accounted for
to maintain accountability over the assets.

Guidance for implementing the Integrity Act is provided through OMB Circular A-123, “Management’s
Responsibility for Internal Control.” In addition to requiring agencies to provide an assurance statement on
the effectiveness of programmatic internal controls and conformance with financial management systems
requirements, OMB Circular A-123 requires agencies to provide an assurance statement on the effectiveness
of internal control over financial reporting. To provide these assurances to the President, the Attorney General
depends on information from component heads regarding their component’s internal controls.

FMFIA Assurance Statement

The OBDs management is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of FMFIA. In accordance with OMB Circular A-123,
OBDs management conducted its annual assessment of the effectiveness of internal controls to support
effective and efficient programmatic operations and compliance with applicable laws and regulations (FMFIA
Section 2) and whether financial management systems conform to government-wide requirements (FMFIA



                                                 - 30 -
Section 4). Based on the results of the assessment for the period ended September 30, 2010 OBDs
management provides reasonable assurance that the OBDs met the objectives of FMFIA. The assessment did
not identify any material weaknesses required to be reported under FMFIA Section 2, nor did the assessment
identify any non-conformances required to be reported under FMFIA Section 4.

In accordance with Appendix A of OMB Circular A-123, OBDs management conducted its assessment of the
effectiveness of internal control over financial reporting, which included the safeguarding of assets and
compliance with applicable laws and regulations. Based on the results of this assessment for the period ended
June 30, 2010 OBDs management provides reasonable assurance that the OBDs internal control over financial
reporting was operating effectively, and no material weaknesses were found in the design or operation of the
controls.

Financial Systems and Controls
The Financial Management Information System (FMIS2) is the official automated financial system for the
OBDs. The system, which is a certified and accredited financial management system, supports the full range
of financial management requirements, including the general ledger function, budget execution, travel, credit
card purchases, and third-party and Treasury payments. The FMIS2 supports centralized and decentralized
vendor and travel processing and conforms to Federal core financial system requirements. The FMIS2
includes security access control tables and table monitoring reports, an automated FMIS2 user identification
re-certification process, and electronic funds transfer banking monitoring reports.

Legal Compliance
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve federal
financial and program managers’ accountability, provide better information for decision-making, and improve
the efficiency and effectiveness of federal programs. The FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger at the transaction level. The
Federal Information Security Management Act (FISMA) states that to be substantially compliant with FFMIA,
there are to be no significant deficiencies (as defined by FISMA) in information security policies, procedures,
or practices.

FFMIA Compliance Determination

During FY 2010, OBDs management assessed its financial management systems for compliance with FFMIA
and determined that they are substantially compliant. Management based this determination on the results of
FISMA reviews and testing performed for OMB Circular A-123, Appendix A. Consideration was also given
to issues identified in the audit of the FY 2010 OBDs financial statements.




                                                 - 31 -
POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

The Department’s leadership is committed to ensuring its programs and activities will continue to be targeted
to meeting the dynamic demands of the changing legal, economic, and technological environments of the
future.

Immigration Enforcement
•	 As the Department of Homeland Security hires additional border patrol agents, the numbers of illegal
   immigrants and criminal smugglers detained for attempting to cross the border will undoubtedly increase.
   Increased apprehension will in turn require increased Department resources to account for the additional
   detainees. EOIR in particular would require additional immigration judges to keep pace with the increased
   caseload, and area U.S. Attorneys’ offices could also see increased prosecution caseloads.

Technology
•	 Advances in high-speed telecommunications, computers, and other technologies are creating new
   opportunities for criminals, new classes of crimes, and new challenges for law enforcement.

Economy
•	 Possible increases in consumer debt may affect bankruptcy filings.
•	 Increase role for the Department in the federal financial recovery effort through criminal and civil
   litigation.
•	 The interconnected nature of the world’s economy is increasing opportunities for criminal activity,
   including money laundering, white-collar crime, and alien smuggling.

Government
•	 Changes in the fiscal posture or policies of State and local governments could have dramatic effects on the
   capacity of State and local governments to remain effective law enforcement partners.

Globalization
•	 Issues of criminal and civil justice increasingly transcend national boundaries, require the cooperation of
   foreign governments, and involve treaty obligations, multinational environment and trade agreements, and
   other foreign policy concerns.

Social-Demographic
•	 The numbers of adolescents and young adults, now the most crime-prone segment of the population, are
   expected to grow rapidly over the next several years.

The Unpredictable
•	 Changes in federal laws may affect responsibilities and workload.
•	 Much of the litigation caseload is defensive. The OBDs have little control over the number, size, and
   complexity of the civil lawsuits they must defend.
•	 Response to unanticipated natural disasters and their aftermath may require the Department to divert
   resources in an effort to deter, investigate, and prosecute disaster-related federal crimes such as charity
   fraud, insurance fraud, and other crimes.




                                                  - 32 -
OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES

The American Recovery and Reinvestment Act of 2009
•	 OBDs received approximately $1.2 billion in funding under the American Recovery and Reinvestment Act
   of 2009. OBDs are fully committed to ensuring that the funds received are expended responsibly and in a
   transparent manner to further job creation, economic recovery, and other purposes of the Act. Below is a
   chart showing appropriations, obligations, and outlays by component as of September 30, 2010:

Component                   Appropriation Amount         Obligations                 Outlays
OVW                          $     225,563,910            $     223,384,303           $         71,218,060
COPS                         $   1,002,506,265            $   1,002,263,702           $        140,730,444
OIG                          $       2,000,000            $               -           $                 -
OBDs Total                   $   1,230,070,175            $   1,225,648,005           $        211,948,504

LIMITATIONS OF THE FINANCIAL STATEMENTS

•	 The financial statements have been prepared to report the financial position and results of operations of
   OBDs components, pursuant to the requirements of 31 U.S.C. 3515(b).

•	 While the financial statements have been prepared from the books and records of the OBDs in accordance
   with the U.S. generally accepted accounting principles for federal entities and the formats prescribed by
   OMB, the financial statements are in addition to the financial reports used to monitor and control
   budgetary resources which are prepared from the same books and records.

•	 The financial statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity.




                                                 - 33 -
This page intentionally left blank. 





           - 34 -
Independent Auditors’ Reports





          - 35 -
This page intentionally left blank. 





           - 36 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice


Chief Financial Officer
Offices, Boards and Divisions
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Offices,
Boards and Divisions (OBDs) as of September 30, 2010 and 2009, and the related consolidated statements
of net cost and changes in net position, and the combined statements of budgetary resources and custodial
activity (hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the OBDs’ management. Our responsibility is to
express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the OBDs’ internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Offices, Boards and Divisions as of
September 30, 2010 and 2009, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.


                                                          - 37 -
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 4,
2010, on our consideration of the OBDs’ internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 4, 2010




                                              - 38 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


Chief Financial Officer
Offices, Boards and Divisions
U.S. Department Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Offices, Boards and
Divisions (OBDs) as of September 30, 2010 and 2009, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 4, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the OBDs is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the OBDs’ internal control over
financial reporting by obtaining an understanding of the OBDs’ internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the OBDs’
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the OBDs’ internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal



                                                           - 39 -
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

The Exhibit presents the status of the prior year’s finding and recommendation.

This report is intended solely for the information and use of the OBDs’ management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 4, 2010




                                              - 40 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3


                                                                                          EXHIBIT


                  STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATION

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
have reviewed the status of prior year’s finding and recommendation. The following table provides our
assessment of the progress the OBDs has made in correcting the previously identified significant
deficiency. We also provide the Office of the Inspector General report number where the deficiency was
reported, our recommendation for improvement, and the status of the recommendation as of the end of
fiscal year 2010.

                    Significant
     Report                                      Recommendation                         Status
                    Deficiency
 Annual           Weaknesses       Recommendation No. 1: Incorporate into
 Financial        exist in the     their year-end financial statement review          Completed
 Statement        identification   process an analysis of the effect changes in the
 Fiscal Year      of economic      current economic environment have on funds
 2009             factors in       unique and material to the OBDs and their
 Report No.       funding          potential financial statement impact.
 10-12            analysis




                                             - 41 -
This page intentionally left blank. 





           - 42 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


Chief Financial Officer
Offices, Boards and Divisions
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Offices, Boards and
Divisions (OBDs) as of September 30, 2010 and 2009, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 4, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the OBDs is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the OBDs. As part of obtaining reasonable assurance about whether the OBDs’
fiscal year 2010 consolidated financial statements are free of material misstatement, we performed tests of
the OBDs’ compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, contracts,
and grant agreements applicable to the OBDs. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the OBDs’ financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

                                                          - 43 -
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2




This report is intended solely for the information and use of the OBDs’ management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 4, 2010




                                            - 44 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 45 -
                                              U. S. Department of Justice

                                             Offices, Boards and Divisions

                                              Consolidated Balance Sheets

                                           As of September 30, 2010 and 2009

Dollars in Thousands                                                                                  2010            2009

ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                                        $       5,825,079    $   4,900,344
         Investments, Net (Note 5)                                                                 270,271          215,149
         Accounts Receivable, Net (Note 6)                                                         291,193          334,297
         Other Assets (Note 9)                                                                     134,244          199,351
     Total Intragovernmental                                                                     6,520,787        5,649,141

      Cash and Monetary Assets (Note 4)                                                                 46               46
      Accounts Receivable, Net (Note 6)                                                             19,769           10,144
      Inventory and Related Property, Net (Note 7)                                                     106              120
      General Property, Plant and Equipment, Net (Note 8)                                          231,301          183,139
      Advances and Prepayments                                                                       8,225            6,907
Total Assets                                                                             $       6,780,234    $   5,849,497

LIABILITIES (Note 10)
     Intragovernmental
         Accounts Payable                                                                $         306,300    $    347,723
         Accrued Federal Employees' Compensation Act Liabilities                                     9,265           8,973
         Custodial Liabilities (Note 18)                                                           329,588         133,796
         Other Liabilities (Note 12)                                                               569,083         178,149
     Total Intragovernmental                                                                     1,214,236         668,641

       Accounts Payable                                                                            363,569          329,785
       Accrued Grant Liabilities                                                                   147,652          109,498
       Actuarial Federal Employees' Compensation Act Liabilities                                    50,022           47,504
       Accrued Payroll and Benefits                                                                128,797          114,220
       Accrued Annual and Compensatory Leave Liabilities                                           183,120          178,265
       Contingent Liabilities (Note 13)                                                              4,738                -
       Radiation Exposure Compensation Act Liabilities (Note 19)                                   541,784          343,835
       Other Liabilities (Note 12)                                                                 118,879          104,446
Total Liabilities                                                                        $       2,752,797    $   1,896,194

NET POSITION
      Unexpended Appropriations - Earmarked Funds (Note 14)                              $          19,585    $      22,207
      Unexpended Appropriations - All Other Funds                                                3,979,216        3,782,236
      Cumulative Results of Operations - Earmarked Funds (Note 14)                                 171,475          119,668
      Cumulative Results of Operations - All Other Funds                                          (142,839)          29,192
Total Net Position                                                                       $       4,027,437    $   3,953,303
Total Liabilities and Net Position                                                       $       6,780,234    $   5,849,497




                             The accompanying notes are an integral part of these financial statements.



                                                             - 46 -
                                                 U. S. Department of Justice

                                                Offices, Boards and Divisions

                                            Consolidated Statements of Net Cost

                                  For the Fiscal Years Ended September 30, 2010 and 2009

Dollars in Thousands

                                             Gross Costs                                           Less: Earned Revenues                         Net Cost of
                        Intra­               With the                                      Intra-        With the                                Operations
           FY        governmental             Public                  Total             governmental      Public                 Total            (Note 15)



Goal 1     2010     $         82,443     $       277,500      $            359,943      $        90,793       $     19,439   $     110,232   $        249,711
           2009     $         86,405     $       254,215      $            340,620      $        98,711       $     15,388   $     114,099   $        226,521



Goal 2     2010           1,799,980            3,963,457                 5,763,437             563,603             404,621         968,224          4,795,213
           2009           1,840,475            3,424,889                 5,265,364             556,405             308,702         865,107          4,400,257



Goal 3     2010           1,535,834              734,095                 2,269,929             141,722              39,082         180,804          2,089,125
           2009           1,478,170              678,466                 2,156,636             166,974              31,940         198,914          1,957,722

Total      2010     $     3,418,257      $     4,975,052      $          8,393,309      $      796,118        $    463,142   $   1,259,260   $      7,134,049
           2009     $     3,405,050      $     4,357,570      $          7,762,620      $      822,090        $    356,030   $   1,178,120   $      6,584,500


Goal 1   Prevent Terrorism and Promote the Nation's Security
Goal 2   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3   Ensure the Fair and Efficient Administration of Justice




                                              The accompanying notes are an integral part of these financial statements




                                                                              - 47 -
                                    U. S. Department of Justice

                                   Offices, Boards and Divisions

                         Consolidated Statements of Changes in Net Position

                           For the Fiscal Year Ended September 30, 2010

Dollars in Thousands

                                                                                     2010
                                                            Earmarked              All Other
                                                              Funds                 Funds               Total
Unexpended Appropriations
  Beginning Balances                                    $         22,207       $      3,782,236     $   3,804,443

  Budgetary Financing Sources
    Appropriations Received                                       90,312              7,220,403          7,310,715
    Appropriations Transferred-In/Out                                  -               (209,609)          (209,609)
    Other Adjustments                                             (9,001)               (40,750)           (49,751)
    Appropriations Used                                          (83,933)            (6,773,064)        (6,856,997)

  Total Budgetary Financing Sources                                (2,622)              196,980           194,358

  Unexpended Appropriations                             $         19,585       $      3,979,216     $   3,998,801



Cumulative Results of Operations
  Beginning Balances                                    $        119,668       $          29,192    $     148,860

  Budgetary Financing Sources
    Appropriations Used                                           83,933              6,773,064         6,856,997
    Nonexchange Revenues                                             319                      -               319
    Transfers-In/Out Without Reimbursement                             -                 75,097            75,097

  Other Financing Sources
    Transfers-In/Out Without Reimbursement                               -               (81,783)         (81,783)
    Imputed Financing from Costs Absorbed
        by Others (Note 16)                                        1,301                161,894           163,195
  Total Financing Sources                                         85,553              6,928,272         7,013,825

  Net Cost of Operations                                         (33,746)            (7,100,303)        (7,134,049)

  Net Change                                                      51,807               (172,031)         (120,224)

  Cumulative Results of Operations                      $        171,475       $       (142,839)    $      28,636

Net Position                                            $        191,060       $      3,836,377     $   4,027,437




                       The accompanying notes are an integral part of these financial statements.



                                                       - 48 -
                                   U. S. Department of Justice

                                  Offices, Boards and Divisions

                  Consolidated Statements of Changes in Net Position (continued)

                          For the Fiscal Year Ended September 30, 2009

Dollars in Thousands

                                                                                     2009
                                                            Earmarked              All Other
                                                              Funds                 Funds               Total
Unexpended Appropriations
  Beginning Balances                                    $         44,902       $      2,669,214     $   2,714,116

  Budgetary Financing Sources
    Appropriations Received                                      125,076              7,787,138          7,912,214
    Appropriations Transferred-In/Out                                  -               (261,192)          (261,192)
    Other Adjustments                                                  -               (109,426)          (109,426)
    Appropriations Used                                         (147,771)            (6,303,498)        (6,451,269)

  Total Budgetary Financing Sources                              (22,695)             1,113,022         1,090,327

  Unexpended Appropriations                             $         22,207       $      3,782,236     $   3,804,443



Cumulative Results of Operations
  Beginning Balances                                    $         79,733       $        139,314     $     219,047

  Budgetary Financing Sources
    Appropriations Used                                          147,771              6,303,498         6,451,269
    Nonexchange Revenues                                             233                      -               233
    Transfers-In/Out Without Reimbursement                             -                 89,948            89,948
    Other Budgetary Financing Sources                                  -               (100,000)         (100,000)

  Other Financing Sources
    Transfers-In/Out Without Reimbursement                               -               (88,381)         (88,381)
    Imputed Financing from Costs Absorbed
        by Others (Note 16)                                        1,244                160,000           161,244
  Total Financing Sources                                        149,248              6,365,065         6,514,313

  Net Cost of Operations                                        (109,313)            (6,475,187)        (6,584,500)

  Net Change                                                      39,935               (110,122)          (70,187)

  Cumulative Results of Operations                      $        119,668       $          29,192    $     148,860

Net Position                                            $        141,875       $      3,811,428     $   3,953,303




                       The accompanying notes are an integral part of these financial statements.



                                                       - 49 -
                                      U. S. Department of Justice

                                     Offices, Boards and Divisions

                            Combined Statements of Budgetary Resources

                       For the Fiscal Years Ended September 30, 2010 and 2009

Dollars in Thousands                                                                                           2010              2009
Budgetary Resources
  Unobligated Balance, Brought Forward, October 1                                              $        653,984        $     651,099

   Recoveries of Prior Year Unpaid Obligations                                                          225,639              252,846

   Budget Authority
     Appropriations Received                                                                          7,589,965             8,203,630
     Spending Authority from Offsetting Collections
        Earned
           Collected                                                                                  2,135,632             1,845,846
           Change in Receivables from Federal Sources                                                   (44,709)              142,149
        Change in Unfilled Customer Orders
           Advance Received                                                                                  7,520            13,671
           Without Advance from Federal Sources                                                             92,950            16,972
   Subtotal Budget Authority                                                                          9,781,358            10,222,268

   Nonexpenditure Transfers, Net, Anticipated and Actual                                               (134,512)             (171,244)

   Permanently not Available                                                                                (50,303)         (209,438)
Total Budgetary Resources (Note 17)                                                            $     10,476,166        $   10,745,531

Status of Budgetary Resources
   Obligations Incurred
      Direct                                                                                   $      7,327,826        $    7,999,433
      Reimbursable                                                                                    2,218,387             2,092,114
         Total Obligations Incurred (Note 17)                                                         9,546,213            10,091,547
   Unobligated Balance - Available
      Apportioned                                                                                       667,416               450,832
  Unobligated Balance not Available                                                                     262,537               203,152
Total Status of Budgetary Resources                                                            $     10,476,166        $   10,745,531

Change in Obligated Balance
  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations                                                                        $      4,771,602        $    3,271,864
     Less: Uncollected Customer Payments from Federal Sources                                           746,533               587,412
        Total Unpaid Obligated Balance, Net - Brought Forward, October 1                              4,025,069             2,684,452
   Obligations Incurred, Net                                                                          9,546,213            10,091,547
   Less: Gross Outlays                                                                                9,217,715             8,338,963
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                                            225,639               252,846
   Change in Uncollected Customer Payments from Federal Sources                                         (48,241)             (159,121)

   Obligated Balance, Net - End of Period
     Unpaid Obligations                                                                               4,874,461             4,771,602
     Less: Uncollected Customer Payments from Federal Sources                                           794,774               746,533
         Total Unpaid Obligated Balance, Net - End of Period                                   $      4,079,687        $    4,025,069

Net Outlays
  Gross Outlays                                                                                $      9,217,715        $    8,338,963
  Less: Offsetting Collections                                                                        2,143,152             1,859,517
  Less: Distributed Offsetting Receipts (Note 17)                                                       691,754               287,073
Total Net Outlays (Note 17)                                                                    $      6,382,809        $    6,192,373


                               The accompanying notes are an integral part of these financial statements.


                                                              - 50 -
                                   U. S. Department of Justice

                                  Offices, Boards and Divisions

                           Combined Statements of Custodial Activity

                    For the Fiscal Years Ended September 30, 2010 and 2009

Dollars in Thousands                                                                             2010               2009
Revenue Activity
 Sources of Cash Collections
    Delinquent Federal Civil Debts as Required by the Federal
         Debt Recovery Act of 1986                                                 $      4,789,655       $   2,884,775
    Fines, Penalties and Restitution Payments - Criminal                                     33,004              22,959
    Miscellaneous                                                                                81                 108
 Total Custodial Revenue                                                                  4,822,740           2,907,842
Disposition of Collections
    Transferred to Federal Agencies
         U.S. Department of Agriculture                                                     (84,620)             (92,073)
         U.S. Department of Commerce                                                         (1,725)                (771)
         U.S. Department of the Interior                                                   (283,244)             (25,059)
         U.S. Department of Justice                                                        (510,634)            (123,787)
         U.S. Department of Labor                                                            (3,537)                (528)
         U.S. Postal Service                                                                 (6,762)              (4,435)
         U.S. Department of State                                                              (199)                   -
         U.S. Department of the Treasury                                                   (571,742)            (294,619)
         Office of Personnel Management                                                     (46,636)             (19,833)
         National Credit Union Administration                                                     -                 (470)
         Federal Communications Commission                                                   (2,693)              (9,773)
         Social Security Administration                                                      (3,558)                (982)
         Smithsonian Institution                                                               (209)                  (8)
         U.S. Department of Veterans Affairs                                                (35,068)             (28,710)
         General Services Administration                                                     (4,008)            (116,631)
         Securities and Exchange Commission                                                      (2)                  (4)
         Federal Deposit Insurance Corporation                                                  (42)              (1,958)
         Railroad Retirement Board                                                             (143)                (335)
         Tennessee Valley Authority                                                               -               (4,207)
         Environmental Protection Agency                                                   (720,010)            (223,334)
         U.S. Department of Transportation                                                     (765)              (1,357)
         U.S. Department of Homeland Security                                               (30,872)             (17,169)
         Agency for International Development                                                (2,155)                   -
         Small Business Administration                                                       (5,360)              (5,332)
         U.S. Department of Health and Human Services                                    (1,528,861)          (1,367,320)
         National Aeronautics and Space Administration                                       (2,859)              (2,957)
         Export-Import Bank of the United States                                             (4,704)                   -
         U.S. Department of Housing and Urban Development                                   (25,985)             (18,347)
         U.S. Department of Energy                                                           (2,281)              (4,065)
         U.S. Department of Education                                                       (63,002)             (18,003)
         Independent Agencies                                                               (54,493)             (54,916)
         U.S. Department of Defense                                                        (112,640)            (113,023)
    Transferred to the Public                                                              (391,304)            (329,816)
    (Increase)/Decrease in Amounts Yet to be Transferred                                   (210,225)              55,779
    Refunds and Other Payments                                                              (10,627)                (622)
    Retained by the Reporting Entity                                                       (101,775)             (83,177)

Net Custodial Activity (Note 18)                                                   $                  -   $            -




                         The accompanying notes are an integral part of these financial statements.



                                                        - 51 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 1. Summary of Significant Accounting Policies

A. Reporting Entity

  The Offices, Boards and Divisions (OBDs) are comprised of thirty-seven enforcement, litigating and policy-
  making components with a variety of missions and programs. Included among these components are the
  following:

  Offices                                           Boards
  Office of the Attorney General                    U.S. Parole Commission
  Office of the Deputy Attorney General             Foreign Claims Settlement Commission
  Office of the Associate Attorney General
  Office of the Solicitor General                   Divisions
  Office of Legal Counsel                           Antitrust Division
  Office of Legislative Affairs                     Civil Division
  Office of Professional Responsibility             Civil Rights Division
  Office of Legal Policy                            Criminal Division
  Office of Public Affairs                          Environment and Natural Resources Division
  Office of the Pardon Attorney                     Tax Division
  Office of the Inspector General                   Justice Management Division (JMD)
  Community Relations Service                         (including the Working Capital Fund)
  Executive Office for U.S. Attorneys (EOUSA)       National Security Division
  U.S. Attorneys
  Office of Dispute Resolution
  INTERPOL – U.S. National Central Bureau
  Executive Office for Immigration Review
  Executive Office for U.S. Trustees (EOUST)
  Office of Intergovernmental and Public Liaison
  Office of Information Policy
  Office of Community Oriented Policing Services (COPS)
  National Drug Intelligence Center
  Office of the Federal Detention Trustee
  Professional Responsibility Advisory Office
  Office on Violence Against Women
  Executive Office for Organized Crime Drug Enforcement Task Forces
  Office of Tribal Justice




                             These notes are an integral part of the financial statements.


                                                         - 52 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


B. Basis of Presentation

    These financial statements have been prepared from the books and records of the OBDs in accordance with
    United States generally accepted accounting principles issued by the Federal Accounting Standards Advisory
    Board (FASAB) and presentation guidelines in the Office of Management and Budget (OMB) Circular A-
    136, “Financial Reporting Requirements.” These financial statements are different from the financial reports
    prepared pursuant to OMB directives, which are used to monitor and control the use of the OBDs’ budgetary
    resources. To ensure that the OBDs financial statements are meaningful at the entity level and to enhance
    reporting consistency within the Department, Other Assets and Other Liabilities as defined by OMB Circular
    A-136 have been disaggregated on the balance sheet. These include Advances and Prepayments, Accrued
    Federal Employees’ Compensation Act (FECA) Liabilities, Custodial Liabilities, Accrued Payroll and
    Benefits, Accrued Annual and Compensatory Leave Liabilities, Contingent Liabilities, Radiation Exposure
    Compensation Act Liabilities, Actuarial FECA Liabilities, and Accrued Grant Liabilities.

C. Basis of Consolidation

    The consolidated/combined financial statements include all funds and programs under the OBDs control,
    with the exception of the Assets Forfeiture Fund and Seized Asset Deposit Fund, for which separate financial
    statements are prepared. All significant proprietary intra-entity transactions and balances have been
    eliminated in consolidation. The Statements of Budgetary Resources and Statements of Custodial Activity
    are combined statements for FYs 2010 and 2009, and as such, intra-entity transactions have not been
    eliminated. The consolidated financial statements do not include centrally administered assets and liabilities
    related to the Federal Government as a whole, such as General Services Administration (GSA) owned
    property and equipment and borrowings from the public by the U.S. Treasury (the Treasury), which may in
    part be attributable to the OBDs.

D. Basis of Accounting

   Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual basis,
   revenues are recorded when earned and expenses are recorded when incurred, regardless of when cash is
   exchanged. Under the budgetary basis, however, funds availability is recorded based upon legal
   considerations and constraints. As a result, certain line items on the proprietary financial statements may not
   equal similar line items on the budgetary financial statements.

   Custodial activity reported on the Combined Statements of Custodial Activity is prepared on the modified cash
   basis of accounting. Under the modified cash basis of accounting receivables and payables are not accrued
   with exception of interest earned on invested funds. Receipts are recorded when received with the exception
   of interest, and disbursements are recorded when paid. Interest is recorded when earned, including
   accretion/amortization of investment discounts and premiums. Investments are stated at amortized cost.




                               These notes are an integral part of the financial statements.


                                                           - 53 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


E. Non-Entity Assets

  Non-entity assets are not available for use by the OBDs and consist of settlement funds and the related

  investment revenue and restricted undisbursed civil and criminal debt collections.


F. Fund Balance with U.S. Treasury and Cash

  Fund Balance with the Treasury represents primarily appropriated, revolving, and trust funds available to pay
  current liabilities and finance future authorized purchases. The OBDs do not, for the most part, maintain cash
  in commercial bank accounts. Certain receipts, however, are processed by commercial banks for deposit to
  individual accounts maintained at the Treasury. The Treasury, as directed by authorized Department
  accountable officers, processes cash receipts and disbursements.

G. Investments

   The EOUSA, EOUST, and Radiation Exposure Compensation Trust Fund (RECTF) are the only components
   with investment authority. RECTF had no investment activities for FY 2010 or 2009. Investments are
   reported on the Consolidated Balance Sheets at their net value, the face value plus or minus any unamortized
   premium and discount. Premiums and discounts are amortized over the life of the Treasury security. The
   interest method is used for the amortization of premium and discount of Treasury notes and the straight-line
   method is used for Treasury bills. Both EOUSA and EOUST intend to hold investments to maturity.
   Accordingly, no provision is made for unrealized gains or losses on these securities. The market value of the
   investments is the current market value at the end of the reporting period. It is calculated by using the “End of
   Day” price listed in the FedInvest Price File, which can be found on the Bureau of Public Debt website
   (http://www.fedinvest.gov).

H. Accounts Receivable

   Net accounts receivable include reimbursement and refund receivables due from federal agencies and the
   public. Generally, all receivables from federal agencies are considered fully collectible. An allowance for
   doubtful accounts is established (see Note 6) for receivables due from the public. An allowance for
   uncollectible accounts was established as of September 30, 2010 and 2009 for Chapter 11 accounts receivable
   reported by the EOUST. The methodology for calculating the allowance is determined by calculating the
   average of prior years’ net write-off amounts.

I. Inventory and Related Property

  Inventory consists of new and rehabilitated office furniture, including chairs, tables, credenzas, lamps and file
  cabinets, which are to be sold in normal operations of the OBDs. The value of new inventory is determined
  on the basis of acquisition cost. The value of rehabilitated inventory is determined on the basis of
  rehabilitation and transportation costs. As inventory is sold, expenses are recorded. The value of inventory on
  hand at year-end is based on the historical cost.



                               These notes are an integral part of the financial statements.


                                                           - 54 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


J. General Property, Plant and Equipment

   The GSA, which charges rent equivalent to the commercial rental rates for similar properties, provides
   buildings in which the OBDs operate. The Department does not recognize depreciation on buildings and
   equipment provided by the GSA.

   Personal property, excluding internal use software, is capitalized when the initial cost of acquiring the asset is
   $25 or more and the asset has an estimated useful life of two or more years.

   Internal use software is capitalized when developmental phase costs or enhancement costs are $500 or more
   and the asset has an estimated useful life of two or more years. Real property and leasehold improvements are
   capitalized when the initial cost of acquiring the asset is $100 or more, and the asset has an estimated useful
   life of two or more years. Depreciation is calculated using the straight-line method over the estimated useful
   lives of the assets, which, for most motor vehicles, equipment, and internal use software, range from
   5 to 12 years.

K. Advances and Prepayments

   Advances to government agencies represent amounts paid to government agencies that have not yet provided
   the service under reimbursement agreements for mission support services. Advances and Prepayments on the
   Consolidated Balance Sheets are comprised predominantly of COPS funds disbursed to grantees in excess of
   the total expenditures reported by those grantees. In addition, funds provided by COPS to the Office of
   Justice Programs (OJP) that have not yet been expended with grantees are included in Intragovernmental
   Other Assets on the Consolidated Balance Sheets. A nominal amount of the OBDs advance balance is
   comprised of funds advanced to the OBDs employees for meals and incidental expenses on official travel.

L. Liabilities

   Liabilities represent the amount of monies or other resources that are likely to be paid by the OBDs as the
   result of a transaction or event that has already occurred. However, no liability can be paid by a Department
   entity absent proper budget authority. Liabilities for which an appropriation has not been enacted are
   classified as liabilities not covered by budgetary resources, and there is no certainty that corresponding future
   appropriations will be enacted. Liabilities arising from other than contracts can be abrogated by the
   Government, acting in its sovereign capacity.

M. Accrued Grant Liabilities

   Generally, disbursements of grant funds are recognized as expenses at the time of disbursement. However,
   some grant recipients incur expenditures prior to initiating a request for disbursement based on the nature of
   the expenditures. The OBDs accrue a liability for expenditures incurred by grantees prior to receiving grant
   funds for expenditures. The amount to be accrued is determined through an analysis of historic grant
   expenditures.



                                These notes are an integral part of the financial statements.


                                                            - 55 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


N. Contingencies and Commitments

  The OBDs are involved in various administrative proceedings, legal actions, and claims. The balance sheet
  includes an estimated liability for those legal actions where management and the Chief Counsel consider
  adverse decisions “probable” and amounts are reasonably estimable. Legal actions where management and
  the Chief Counsel consider adverse decisions “probable” or “reasonably possible” and the amounts are
  reasonably estimable are disclosed in Note 13, Contingencies and Commitments. However, there are cases
  where amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
  estimated or the likelihood of an unfavorable outcome is considered “remote”.

O. Annual, Sick, and Other Leave

  Annual and compensatory leave is expensed with an offsetting liability as it is earned and the liability is
  reduced as leave is taken. Each year, the balance in the accrued annual leave liability account is adjusted to
  reflect current pay rates. To the extent current or prior year appropriations are not available to fund annual
  and compensatory leave earned but not taken, funding will be obtained from future financing sources. Sick
  leave and other types of nonvested leave are expensed as taken.

P. Interest on Late Payments

  Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, federal agencies must pay interest on payments
  for goods or services made to business concerns after the due date. The due date is generally 30 days after
  receipt of a proper invoice or acceptance of the goods or services, whichever is later.

Q. Retirement Plans

   With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service Retirement
   System (CSRS) and employees hired on or after that date are covered by the Federal Employees Retirement
   System (FERS). For employees covered by CSRS, the OBDs contribute 7% of the employees’ gross pay for
   regular and 7.5% for law enforcement officers’ retirement. For employees covered by FERS, the OBDs
   contribute 11.2% of the employees’ gross pay for regular and 24.9% for law enforcement officers’ retirement.
   All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For those employees
   covered by the FERS, a TSP account is automatically established, and the OBDs are required to contribute an
   additional 1% of gross pay to this plan and match employee contributions up to 4%. No contributions are
   made to the TSP accounts established by the CSRS employees. The OBDs do not report CSRS or FERS
   assets, accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to their employees.
   Such reporting is the responsibility of the Office of Personnel Management (OPM). Statement of Federal
   Financial Accounting Standards (SFFAS) No. 5, “Accounting for Liabilities of the Federal Government,”
   requires employing agencies to recognize the cost of pensions and other retirement benefits during their
   employees’ active years of service. Refer to Note 16, “Imputed Financing from Costs Absorbed by Others,”
   for additional details.




                               These notes are an integral part of the financial statements.


                                                           - 56 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


R. Federal Employee Compensation Benefits

   The FECA provides income and medical cost protection to cover federal civilian employees injured on the
   job, employees who have incurred a work-related occupational disease, and beneficiaries of employees whose
   death is attributable to a job-related injury or occupational disease. The total FECA liability consists of an
   actuarial portion and an accrued portion, as discussed below.

   Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the Federal
   Government for future compensation benefits, which includes the expected liability for death, disability,
   medical, and other approved costs. The liability is determined using the paid-losses extrapolation method
   calculated over the next 37-year period. This method utilizes historical benefit payment patterns related to a
   specific incurred period to predict the ultimate payments related to that period. The projected annual benefit
   payments are discounted to present value. The resulting Federal Government liability is then distributed by
   agency. The Department’s portion of this includes the estimated future cost of death benefits, workers’
   compensation, medical, and miscellaneous costs for approved compensation cases for its employees. The
   Department’s liability is further allocated to the component reporting entities on the basis of actual payments
   made to the FECA Special Benefits Fund (SBF) for the three prior years as compared to the total
   Department’s payments made over the same period.

   The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an extended
   future estimate of cost that will not be obligated against budgetary resources until the fiscal year in which the
   cost is actually billed to the OBDs. The cost associated with this liability may not be met by the OBDs
   without further appropriation action.

   Accrued Liability: The accrued FECA liability owed to the DOL is the difference between the FECA benefits
   paid by the FECA SBF and the agency’s actual cash payments to the FECA SBF. For example, the FECA
   SBF will pay benefits on behalf of an agency through the current year. However, most agencies’ actual cash
   payments to the FECA SBF for the current fiscal year will reimburse the FECA SBF for benefits paid through
   a prior fiscal year. The difference between these two amounts is the accrued FECA liability.

S. Intragovernmental Activity

   Intragovernmental costs and exchange revenue represent transactions made between two reporting entities
   within the federal government. Costs and earned revenues with the public represent exchange transactions
   made between the reporting entity and a non-federal entity. The classification of revenue or cost as
   “intragovernmental” or “with the public” is defined on a transaction-by-transaction basis. The purpose of this
   classification is to enable the federal government to prepare consolidated financial statements, not to match
   public and intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.




                                These notes are an integral part of the financial statements.


                                                            - 57 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


T. 	Revenues and Other Financing Sources

  The OBDs receive the majority of funding needed to support their programs through Congressional
  appropriations. They receive annual, multi-year, and no-year appropriations that may be used, within statutory
  limits, for operating and capital expenditures. Additional amounts are received for reimbursement services.

  Appropriations are reflected as a budgetary financing source entitled “Appropriations Used” on the
  Consolidated Statements of Changes in Net Position at the time goods and services are received.
  Appropriations are recorded in the year they are authorized for on the Combined Statements of Budgetary
  Resources. Exchange revenues are recognized when earned, i.e., when services are rendered. The majority of
  intragovernmental services rendered by the OBDs entail legal and administrative activities provided to other
  Department bureaus and other government agencies. The OBDs also receive quarterly bankruptcy fees
  assessed against public debtors.

  Custodial revenues represent the investment interest income earned from the settlement funds held by the
  OBDs and federal civil and criminal collections. The custodial revenues are not retained by the OBDs and are
  therefore recorded as custodial liabilities. Refer to Note 18, “Net Custodial Revenue Activity,” for details.

  In addition, according to par. 31 of Federal Accounting Standards Advisory Board (FASAB) Interpretation 6,
  “Accounting for Imputed Intra-Departmental Costs: An Interpretation of SFFAS 4 (Managerial Cost
  Accounting Concepts and Standards),” the receiving entity of the imputed intra-departmental and inter-
  departmental costs recognizes the full cost of the goods and services that it receives. To the extent that
  reimbursement is less than full cost, the receiving entity should recognize the difference as a financing source.

U. 	Earmarked Funds

  SFFAS No. 27, “Identifying and Reporting Earmarked Funds” defines ‘earmarked funds’ as being financed
  by specifically identified revenues, often supplemented by other financing sources, which remain available
  over time. These specifically identified revenues and other financing sources are required by statute to be used
  for designated activities, benefits or purposes, and must be accounted for separately from the Government’s
  general revenues. The three required criteria for an earmarked fund are:

       1.	 A statute committing the Federal Government to use specifically identified revenues and other
            financing sources only for designated activities, benefits or purposes;
       2. 	 Explicit authority for the earmarked fund to retain revenues and other financing sources not used in
            the current period for future use to finance the designated activities, benefits, or purposes; and
       3.	 A requirement to account for and report on the receipt, use, and retention of the revenues and other
            financing sources that distinguishes the earmarked fund from the Government’s general revenues.

  The following OBDs funds meet the definition of an earmarked fund: U.S. Trustee System Fund and

  Antitrust Division.





                               These notes are an integral part of the financial statements.


                                                           - 58 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


V. Tax Exempt Status

  As an agency of the Federal Government, the OBDs are exempt from all income taxes imposed by any 

  governing body whether it be a federal, state, commonwealth, local, or foreign government.


W. Use of Estimates

  Accounting estimates are an integral part of the OBDs financial statements and were used, in part, to
  determine the reported amounts of assets and liabilities and the reported amounts of revenue and expenses
  during the reporting period. Estimates were based on management’s knowledge and experience about past,
  current, and future events. However, estimates are subjective in nature and actual results may differ from
  management’s judgments.

X. Subsequent Events

  Subsequent events and transactions occurring after September 30, 2010 through the date of the auditors’
  opinion have been evaluated for potential recognition or disclosure in the financial statements. The date of the
  auditors’ opinion also represents the date that the financial statements were available to be issued.




                              These notes are an integral part of the financial statements.


                                                          - 59 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

The OBDs non-entity assets include assets related to custodial activity such as collections from delinquent federal
civil debts and criminal fines, penalties and restitution payments; and investments with the related interest
revenue.

As of September 30, 2010 and 2009
                                                                   2010                        2009
 Intragovernmental
     Fund Balance with U.S. Treasury                       $           848,070         $         231,368
     Investments, Net                                                   86,166                    86,084
       Total Intragovernmental                                         934,236                   317,452
 With the Public
     Total Non-Entity Assets                                          934,236                    317,452
     Total Entity Assets                                            5,845,998                  5,532,045
     Total Assets                                          $        6,780,234          $       5,849,497




                               These notes are an integral part of the financial statements.


                                                           - 60 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 3. Fund Balance with U.S. Treasury

As of September 30, 2010 and 2009
                                                                            2010                   2009
 Fund Balances
   Trust Funds                                                      $           16,334         $      18,596
   Special Funds                                                                 4,439                 9,018
   Revolving Funds                                                             402,435               362,569
   General Funds                                                             5,401,755             4,510,045
   Other Fund Types                                                                116                   116

       Total Fund Balances with U.S. Treasury                       $        5,825,079         $   4,900,344


 Status of Fund Balances
    Unobligated Balance - Available                                 $          667,416         $     450,832
    Unobligated Balance - Unavailable                                          262,537               203,152
    Obligated Balance not yet Disbursed                                      4,079,687             4,025,069
    Other Funds (With)/Without Budgetary Resources                             815,439               221,291
       Total Status of Fund Balances                                $        5,825,079         $   4,900,344

Annual and multi-year budget authority expires at the end of its period of availability. During the first through
the fifth expired years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or bona fide need
arising in the fiscal year for which the appropriation was made. The unobligated balance for no-year budget
authority may be used to incur obligations indefinitely for the purpose specified by the appropriation act. No-year
budget authority unobligated balances are still subject to the annual apportionment and allotment process.

Other Funds (With)/Without Budgetary Resources primarily represents the net effect of 1) investments in short-
term securities with budgetary resources, 2) resources temporarily not available pursuant to public law, 3)
custodial liabilities, and 4) miscellaneous receipts.

Note 4. Cash and Monetary Assets

As of September 30, 2010 and 2009
                                                                            2010                   2009
 Cash
   Imprest Funds                                                    $                  46      $          46



                               These notes are an integral part of the financial statements.


                                                           - 61 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net

OBDs invest in Market-based Treasury securities. Market-based Treasury securities are debt securities that the
U.S. Treasury issues to federal entities without statutorily determined interest rates. Although the securities are
not marketable, their terms (price and interest rates) mirror the terms of marketable Treasury securities.

The federal Government does not set aside assets to pay future benefits or other expenditures associated with
EOUST earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited in the
U.S. Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the
EOUST as evidence of its receipts. Treasury securities are an asset to the EOUST and a liability to the U.S.
Treasury. Because the EOUST and the U.S. Treasury are both parts of the Government, these assets and
liabilities offset each other from the standpoint of the Government as a whole. For this reason, they do not
represent an asset or a liability in the U.S. Government-wide financial statements. Treasury securities provide the
EOUST with authority to draw upon the U.S. Treasury to make future benefit payments or other expenditures.
When the EOUST requires redemption of these securities to make expenditures, the Government finances those
expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public
or repaying less debt, or by curtailing other expenditures. This is the same way that the Government finances all
other expenditures.


                                                                  Unamortized
                                                   Face             Premium            Interest       Investments,    Market
                                                   Value           (Discount)         Receivable          Net         Value
As of September 30, 2010
Intragovernmental
   Non-Marketable Securities
      Market Based                              $ 270,072         $             4     $         195   $ 270,271      $ 270,174

As of September 30, 2009
Intragovernmental
   Non-Marketable Securities
      Market Based                              $ 214,697         $          257      $         195   $ 215,149      $ 215,309




                                These notes are an integral part of the financial statements.


                                                            - 62 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable, Net

As of September 30, 2010 and 2009
                                                                           2010                   2009
 Intragovernmental
    Accounts Receivable                                            $           291,193        $     334,297
       Total Intragovernmental                                                 291,193              334,297

 With the Public
   Accounts Receivable                                                          21,869               18,844
   Allowance for Uncollectible Accounts                                         (2,100)              (8,700)
       Total With the Public                                                    19,769               10,144
       Total Accounts Receivable, Net                              $           310,962        $     344,441


The accounts receivable with the public consists in part of EOUST Chapter 11 quarterly fees in the amount of
$19,491 and $16,686 which have been billed and are due to the EOUST as of September 30, 2010 and 2009,
respectively.

Note 7. Inventory and Related Property, Net

As of September 30, 2010 and 2009
                                                                           2010                   2009
Inventory
    Inventory Purchased for Resale                                 $                106       $          120




                              These notes are an integral part of the financial statements.


                                                          - 63 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 8. General Property, Plant and Equipment, Net

As of September 30, 2010                           Acquisition          Accumulated          Net Book      Useful
                                                     Cost               Depreciation          Value         Life

 Vehicles                                          $     11,758         $      (8,226)       $     3,532    5-7 yrs
 Equipment                                               35,061               (26,444)             8,617   5-12 yrs
 Leasehold Improvements                                 110,032               (76,190)            33,842      5 yrs
 Internal Use Software                                   56,228               (34,579)            21,649      7 yrs
 Internal Use Software in Development                   163,661                        -         163,661        n/a
 Total                                             $    376,740         $ (145,439)          $   231,301

As of September 30, 2009

 Vehicles                                          $     10,883         $      (7,043)       $     3,840    5-7 yrs
 Equipment                                               36,819               (28,223)             8,596   5-12 yrs
 Leasehold Improvements                                  97,709               (67,510)            30,199      5 yrs
 Internal Use Software                                   54,451               (31,339)            23,112      7 yrs
 Internal Use Software in Development                   117,392                     -            117,392        n/a
 Total                                             $    317,254         $ (134,115)          $   183,139

The OBDs purchased $57,106 and $54,015 of capitalized property from public sources as of September 30, 2010
and 2009, respectively. The OBDs purchased $19,249 and $3,342 of capitalized property from federal sources
during FYs 2010 and 2009, respectively.




                             These notes are an integral part of the financial statements.


                                                         - 64 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 9. Other Assets

As of September 30, 2010 and 2009
                                                                                 2010                    2009
 Intragovernmental
     Advances and Prepayments                                            $          134,244      $         199,351


Advances and Prepayments primarily represent funds provided by COPS to OJP that have not yet been expended
by grantees. COPS provides grants to tribal, state, and local law enforcement agencies to hire and train
community policing professionals, acquire and deploy cutting-edge crime-fighting technologies, and develop and
test innovative policing strategies. OJP provides grant accounting services on a reimbursable basis to COPS.

Note 10. Liabilities not Covered by Budgetary Resources

As of September 30, 2010 and 2009
                                                                                  2010                    2009
 Intragovernmental
    Accrued FECA Liabilities                                                 $           9,265       $           8,973
    Other Unfunded Employment Related Liabilities                                          426                     240
       Total Intragovernmental                                                           9,691                   9,213

 With the Public
   Actuarial FECA Liabilities                                                          50,022                47,504
   Accrued Annual and Compensatory Leave Liabilities                                  183,120               178,265
   Contingent Liabilities (Note 13)                                                     4,738                     -
   RECA Liabilities (Note 19)                                                         541,784               343,835
       Total With the Public                                                          779,664               569,604
       Total Liabilities not Covered by Budgetary Resources                           789,355                578,817
       Total Liabilities Covered by Budgetary Resources                             1,963,442              1,317,377
       Total Liabilities                                                     $      2,752,797        $     1,896,194




                              These notes are an integral part of the financial statements.


                                                          - 65 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 11. Leases

The OBDs have no capital leases. The majority of the OBDs equipment leases are for copying machines and
computer equipment, which are reported as operating leases.

As of September 30, 2010 and 2009

Operating Lease Expenses

Lease Type                                               2010                      2009
   Noncancelable Operating Leases                  $        2,840            $        8,137
   Cancelable Operating Leases                            487,814                   475,183
       Total Operating Lease Expenses              $      490,654            $      483,320

Future Noncancelable Operating Lease Payments Due

                                                       Land and             Machinery and
Fiscal Year                                            Buildings             Equipment                 Total
   2011                                                      1,508                   334                   1,842
   2012                                                        424                   117                     541
   2013                                                          -                    23                      23
   2014                                                          -                    12                      12
   2015                                                          -                     3                       3
    Total Future Noncancelable Operating
         Lease Payments                            $          1,932          $               489   $       2,421




                             These notes are an integral part of the financial statements.


                                                         - 66 -
                                         U.S. Department of Justice

                                       Offices, Boards and Divisions

                                      Notes to the Financial Statements

                                           (Dollars in Thousands, Except as Noted)


Note 12. Other Liabilities

All Other Liabilities are current liabilities. The majority of Intragovernmental Other Liabilities relate to
miscellaneous receipts of civil and criminal debt collections where Treasury is designated as the recipient of
either a portion of a collection or the entire amount totaled $485,769 and $79,327 as of September 30, 2010 and
2009, respectively.

As of September 30, 2010 and 2009
                                                                              2010                    2009
Intragovernmental
    Employer Contributions and Payroll Taxes Payable                  $            27,660        $       24,268
    Other Post-Employment Benefits Due and Payable                                    657                   235
    Other Unfunded Employment Related Liabilities                                     426                   240
    Advances from Others                                                           57,393                52,989
    Liability for Deposit Fund, Clearing
       Account and Undeposited Collections                                         (5,071)               19,366
    Other Liabilities                                                             488,018                81,051
       Total Intragovernmental                                                    569,083               178,149

With the Public
   Custodial Liabilities                                                          118,879               104,446
       Total Other Liabilities                                         $          687,962        $      282,595

Note 13. Contingencies and Commitments


                                       Accrued                    Estimated Range of Loss
                                       Liabilities                Lower           Upper
As of September 30, 2010
   Probable                       $             4,738         $       4,738         $         5,967
   Reasonably Possible                                               53,181                  65,546

As of September 30, 2009
   Probable                       $                   -       $          -          $             -
   Reasonably Possible                                             132,270                  136,510




                                 These notes are an integral part of the financial statements.


                                                             - 67 -
                                                  U.S. Department of Justice

                                                Offices, Boards and Divisions

                                               Notes to the Financial Statements

                                                    (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds

As of September 30, 2010 and 2009
                                                                 2010                                                 2009
                                                                                Total                                               Total
                                          U.S. Trustees        Antitrust      Earmarked         U.S. Trustees       Antitrust     Earmarked
                                              Fund             Division         Funds               Fund            Division        Funds
Balance Sheet
Assets
   Fund Balance with U. S. Treasury        $      4,439    $       30,210     $    34,649       $      9,018    $       45,651    $    54,669
   Investments, Net                             184,105                 -         184,105            129,065                 -        129,065
   Other Assets                                  20,704             4,894          25,598             11,223             6,091         17,314
     Total Assets                          $    209,248    $       35,104     $   244,352       $    149,306    $       51,742    $   201,048

Liabilities
  Accounts Payable                         $     11,370    $        5,652     $     17,022      $     13,222    $       11,660    $    24,882
  Other Liabilities                              21,203            15,067           36,270            19,943            14,348         34,291
     Total Liabilities                    $      32,573    $       20,719     $     53,292      $     33,165    $       26,008    $    59,173
Net Position
  Unexpended Appropriations               $           -    $       19,585     $    19,585       $          -    $       22,207    $    22,207
  Cumulative Results of Operations              176,675            (5,200)        171,475            116,141             3,527        119,668
     Total Net Position                   $     176,675    $       14,385     $   191,060       $    116,141    $       25,734    $   141,875
     Total Liabilities and Net Position   $     209,248    $       35,104     $   244,352       $    149,306    $       51,742    $   201,048


For the Fiscal Years Ended September 30, 2010 and 2009
                                                                 2010                                                 2009
                                                                                Total                                               Total
                                          U.S. Trustees        Antitrust      Earmarked         U.S. Trustees       Antitrust     Earmarked
                                              Fund             Division         Funds               Fund            Division        Funds
Statement of Net Cost
   Gross Cost of Operations                $    229,760    $      166,135     $   395,895       $    223,649    $      159,370    $   383,019
   Less: Exchange Revenues                      289,191            72,958         362,149            231,498            42,208        273,706
     Net Cost (Revenue) of Operations      $    (59,431)   $       93,177     $    33,746       $     (7,849)   $      117,162    $   109,313

Statement of Changes in Net Position
  Net Position Beginning of Period         $    116,141    $       25,734     $   141,875       $    107,305    $       17,330    $   124,635

  Budgetary Financing Sources                       319            81,311          81,630                234           125,075         125,309
  Other Financing Sources                           784               517           1,301                753               491           1,244
     Total Financing Sources                      1,103            81,828          82,931                987           125,566         126,553
  Net Cost of Operations                         59,431           (93,177)        (33,746)             7,849          (117,162)       (109,313)
  Net Change                                     60,534           (11,349)         49,185              8,836             8,404          17,240
  Net Position End of Period               $    176,675    $       14,385     $   191,060       $    116,141    $       25,734    $    141,875

The United States Trustees supervise the administration of bankruptcy cases and private trustees in the Federal
Bankruptcy Courts. The Bankruptcy Judges, U.S. Trustees and Family Farmer Bankruptcy Act of 1986 (Public
Law 99–554) expanded the pilot trustee program to a 21 region, nationwide program encompassing 88 judicial
districts. This program collects user fees assessed against debtors, which offset the annual appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily involves
the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal proceedings in the
federal courts, and the maintenance of competitive conditions. The Antitrust Division collects filing fees for pre-
merger notifications and retains these fees for expenditure in support of its programs.

                                          These notes are an integral part of the financial statements.


                                                                           - 68 -
                                                      U.S. Department of Justice

                                                    Offices, Boards and Divisions

                                                   Notes to the Financial Statements

                                                           (Dollars in Thousands, Except as Noted)


Note 15. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2010
                                                                    Suborganizations
                                             LA                   NLA          Earmarked          WCF             Eliminations           Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                       $          192,452 $            104,820 $              - $       232,585 $           (169,914) $           359,943
   Less: Earned Revenue                         32,447               12,659                -         235,040             (169,914)             110,232
   Net Cost (Revenue) of Operations            160,005               92,161                -          (2,455)                   -              249,711

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                                 3,370,166            2,052,254       401,021           517,531             (577,535)           5,763,437
   Less: Earned Revenue                         556,149               99,022       367,593           522,995             (577,535)             968,224
   Net Cost (Revenue) of Operations           2,814,017            1,953,232        33,428            (5,464)                   -            4,795,213

Goal 3: Ensure the Fair and Efficient Administration of Justice
   Gross Cost                                  190,747             1,930,077               -         467,604             (318,499)           2,269,929
   Less: Earned Revenue                              -                26,761               -         472,542             (318,499)             180,804
   Net Cost (Revenue) of Operations            190,747             1,903,316               -          (4,938)                   -            2,089,125

Net Cost (Revenue) of Operations       $      3,164,769 $          3,948,709 $      33,428 $         (12,857) $                  -   $       7,134,049



For the Fiscal Year Ended September 30, 2009
                                                                    Suborganizations
                                             LA                   NLA          Earmarked          WCF             Eliminations           Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security

   Gross Cost                       $          180,538 $             84,798 $              - $       229,950 $           (154,666) $           340,620
   Less: Earned Revenue                         28,678               16,604                -         223,483             (154,666)             114,099
   Net Cost (Revenue) of Operations            151,860               68,194                -           6,467                    -              226,521

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

   Gross Cost                                 3,222,525            1,668,537       383,527           535,722             (544,947)           5,265,364
   Less: Earned Revenue                         528,444               86,507       274,448           520,655             (544,947)             865,107
   Net Cost (Revenue) of Operations           2,694,081            1,582,030       109,079            15,067                    -            4,400,257

Goal 3: Ensure the Fair and Efficient Administration of Justice

   Gross Cost                                  196,549             1,783,058               -         477,303             (300,274)           2,156,636
   Less: Earned Revenue                              -                35,310               -         463,878             (300,274)             198,914
   Net Cost (Revenue) of Operations            196,549             1,747,748               -          13,425                    -            1,957,722

Net Cost (Revenue) of Operations       $      3,042,490 $          3,397,972 $     109,079 $          34,959 $                   -   $       6,584,500

LA - Legal Activities provides for the legal activities of the U S Department of Justice,
      including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions
NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
      the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
      several senior policy offices, and certain activities of the Justice Management Division
Earmarked - Funds identified as earmarked relate specifically to activities of the U S Trustees and Antitrust Division
WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department


                                               These notes are an integral part of the financial statements.


                                                                                 - 69 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 16. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the OBDs from a providing entity that is
not part of the Department of Justice. In accordance with SFFAS No. 30, “Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts”, the material Imputed Inter-
Departmental financing sources recognized by the OBDs are the actual cost of future benefits for the Federal
Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program (FEGLI),
the Federal Pension plans that are paid by other Federal entities, and any un-reimbursed payments made from the
Treasury Judgment Fund on behalf of the OBDs. The Treasury Judgment Fund was established by the Congress
and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements
negotiated by the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2, “Accounting for Treasury
Judgment Fund Transactions,” requires agencies to recognize liabilities and expenses when unfavorable litigation
outcomes are probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that employing agencies
recognize the cost of pensions and other retirement benefits during their employees’ active years of service.
SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the
value of pension benefits expected to be paid in the future, and then determine the total funds to be contributed
by and for covered employees, such that the amount calculated would be sufficient to fund the projected pension
benefits. For employees covered by CSRS, the cost factors are 30.1% of basic pay for regular, 51.1% law
enforcement officers, 23.5% regular offset, and 45.6% law enforcement officers offset. For employees covered
by FERS, the cost factors are 13.8% of basic pay for regular and 29.8% for law enforcement officers.

For the Fiscal Years Ended September 30, 2010 and 2009
                                                                        2010                       2009
Imputed Inter-Departmental Financing
   Treasury Judgment Fund                                        $            3,612            $      19,963
   Health Insurance                                                         107,985                  104,974
   Life Insurance                                                               451                      426
   Pension                                                                   51,147                   35,881
      Total Imputed Inter-Departmental                           $          163,195            $     161,244


Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, “Managerial Cost Accounting
Standards and Concepts,” are the unreimbursed portion of the full costs of goods and services received by the
OBDs from another component in the Department. The OBDs do not have any imputed intra-departmental
financing sources that meet the reporting requirements of the Department.




                               These notes are an integral part of the financial statements.


                                                           - 70 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:
                                                                                                         Total
                                                                   Direct              Reimbursable   Obligations
                                                                  Obligations           Obligations    Incurred
For the Fiscal Year Ended September 30, 2010
    Obligations Apportioned Under
       Category A                                               $ 6,746,230             $ 2,196,053   $ 8,942,283
       Category B                                                   581,596                  22,334       603,930
    Total                                                       $ 7,327,826             $ 2,218,387   $ 9,546,213

For the Fiscal Year Ended September 30, 2009
    Obligations Apportioned Under
       Category A                                               $ 7,741,732             $ 2,044,192   $ 9,785,924
       Category B                                                   257,701                  47,922        305,623
    Total                                                       $ 7,999,433             $ 2,092,114   $ 10,091,547


The apportionment categories are determined in accordance with the guidance provided in OMB Circular A-11,
Part 4, Instructions on Budget Execution. The majority of the OBDs apportionments were under Category A,
which represents resources apportioned for calendar quarters. The apportionments for part of COPS were under
Category B, which represents resources apportioned for other time periods, activities, projects, objectives or for a
combination thereof.




                                These notes are an integral part of the financial statements.


                                                            - 71 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been actually
or constructively received. This amount includes any orders which may have been prepaid or advanced but for
which delivery or performance has not yet occurred.

As of September 30, 2010 and 2009
                                                                            2010                   2009
 UDO Obligations Unpaid                                             $        3,689,725         $    3,633,442
 UDO Obligations Prepaid/Advanced                                              141,910                205,712
     Total UDO                                                      $        3,831,635         $    3,839,154


Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time the
agency has to spend the funds) and its amount.

The Consolidated Appropriations Act, 2005, provided a permanent indefinite appropriation for the OBDs’
Radiation Exposure Compensation Act program beginning FY 2006.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that remains
available for obligation based on annual legislative requirements and other enabling authorities, unless otherwise
restricted. The use of unobligated balances is restricted based on annual legislation requirements and other
enabling authorities. Funds are appropriated on an annual, multi-year, and no-year basis. Appropriated funds
shall expire on the last day of availability and are no longer available for new obligations. Unobligated balances
in unexpired fund symbols are available in the next fiscal year for new obligations unless some restrictions had
been placed on those funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.




                               These notes are an integral part of the financial statements.


                                                           - 72 -
                                       U.S. Department of Justice

                                     Offices, Boards and Divisions

                                    Notes to the Financial Statements

                                           (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2010 is not presented, because the submission of the Budget of the United
States Government (Budget) for FY 2012, which presents the execution of the FY 2010 Budget, occurs after
publication of these financial statements. The Department of Justice Budget Appendix can be found on the OMB
website (http://www.whitehouse.gov/omb/budget) and is available in early February 2011.

For the Fiscal Year Ended September 30, 2009
(Dollars in Millions)                                                                                  Distributed
                                                                    Budgetary         Obligations      Offsetting          Net
                                                                    Resources          Incurred         Receipts          Outlays

 Statement of Budgetary Resources (SBR)                             $    10,746       $     10,092     $      287     $      6,192

 Funds not Reported in Budget of the U.S.
    Expired Funds                                                           (140)                (6)             -               -
    Redistribution of Clearing Accounts and Certain                            -                  -             14             (14)
      Miscellaneous Receipts
    Special and Trust Fund Receipts
      Earnings on Investments, U.S. Trustees System                             -                 -             (1)              1
      Fees for Bankruptcy Oversight, U.S. Trustees System                       -                 -              -             226
      Payment from the General Fund, Radiation Exposure                         -                 -              -              74
         Compensation Trust Fund

 Other                                                                         (2)               (2)             -                  -

 Budget of the United States Government                             $    10,604       $     10,084     $      300     $      6,479



The expired funds, distributed offsetting receipts, special and trust fund receipts are reported in the SBR but not
reported in the Budget of the United States Government. The Other line includes reconciling items between
FACTSII and the SBR.

A reconciliation with the SF-133, “Report on Budget Execution and Budgetary Resources,” was performed and
explanations of differences were provided to OMB at the Department consolidated level.




                                 These notes are an integral part of the financial statements.


                                                             - 73 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 18. Net Custodial Revenue Activity

The Statement of Custodial Activity (SCA) presents the sources and disposition of non-exchange revenues
collected or accrued by the Department on behalf of other recipient entities. In accordance with SFFAS No. 7,
“Accounting for Revenue and Other Financing Sources”, non-exchange custodial collections should be measured
by the collecting entities, but should be recognized by the entities legally entitled to the revenue; therefore,
custodial collections and interest revenue are recognized on the SCA. The SCA is prepared on a modified cash
basis and represents two custodial accounts: (1) DCM and (2) French Bank Credit Lyonnais and French company
Artemis settlement fund.

Overall, the OBDs custodial collections totaled $4,822,740 and $2,907,842 for the fiscal years ended
September 30, 2010 and 2009, respectively. The custodial assets and liabilities are presented on the OBDs
balance sheet as $448,467 and $238,242, as of September 30, 2010 and 2009, respectively.

Debt Collection Management

The primary source of the Office of Debt Collection Management (DCM) collections consists of civil litigated
matters (i.e., student loan defaults, health care fraud, etc.). DCM also processes certain payments on criminal
debts as an accommodation for the Bureau of Prisons (BOP), another component of the Department of Justice,
and the Clerks of the U.S. District Courts. The BOP aggregates collections of inmate criminal debt by correction
facility, and DCM sorts the collections by judicial district and disburses payments to the respective Clerks of the
U.S. Court. DCM also accepts wire transfers or other payments on a criminal debt if a Clerk of U.S. Court is
unable or unwilling to do so. In addition, other negligible custodial collections occur for interest, fines and
penalties. DCM is authorized to perform these actions through the OMB Circular A-129, Policies for Federal
Credit Programs and Non-Tax Receivables; Section V. Delinquent Debt Collection-Referrals to the Department
of Justice; A. Referral for Litigation.

French bank Credit Lyonnais and French company Artemis settlement fund

During FY 2004, the OBDs collected a total settlement fund of $560,000, of which French bank Credit Lyonnais
and French company Artemis paid $375,000 and $185,000, respectively. $110,000 of the French company
Artemis settlement fund was disbursed for compensation of benefits lost. In addition, during FY 2006, $385,473
(including $10,473 interest) of the French bank Credit Lyonnais settlement fund was disbursed for the civil
settlement cases. The remaining $75,000 was held in reserve pending the outcome of the French company
Artemis lawsuit. By court order, the OBDs were given the investment authority and the settlement funds must be
invested. The OBDs invest these funds with the U.S. Department of Treasury, Bureau of the Public Debt. In
accordance with court orders, the French bank Credit Lyonnais and French company Artemis settlement fund
disbursed earned interest to the public of $81 and $108, as of September 30, 2010 and 2009, respectively.




                                These notes are an integral part of the financial statements.


                                                            - 74 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 19. Radiation Exposure Compensation Act

On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C. § 2210,
providing for compassionate payments to individuals who contracted certain cancers and other serious diseases as
a result of their exposure to radiation released during above-ground nuclear weapons tests or as a result of their
exposure to radiation during employment in underground uranium mines. Implementing regulations were issued
by the Department and published in the Federal Register on April 10, 1992, establishing procedures to resolve
claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the United States or
to the person filing the claim. Revisions to the regulations, published in the Federal Register on March 22, 1999,
served to greater assist claimants in establishing entitlement to an award.

On July 10, 2000, the ‘Radiation Exposure Compensation Act Amendments of 2000,’ P.L. 106-245, was enacted.
Some of the widespread changes include new claimant populations, additional compensable diseases, lower
radiation exposure thresholds, modified medical documentation requirements, and removal of certain disease
restrictions. Pursuant to the 2000 Amendments, the Department was directed to issue implementing regulations.
The Department published two related rulemakings in the Federal Register to implement the legislation.

Subsequent action by Congress required modification to those rulemakings. Therefore, the Department published
a “final” rule in the Federal Register on March 23, 2004, which went into effect on April 22, 2004.

There are now five categories of claimants: uranium miners, uranium millers, ore transporters, downwinders, and
on-site participants. Each category requires similar eligibility criteria: if claimants can demonstrate that they
contracted a compensable disease after working or residing in a designated location for a specified period of time,
they qualify for compensation.

The enactment of two pieces of legislation changed the funding sources for RECA claimants. The National
Defense Authorization Act for FY 2005 requires that RECA Section 5 claimants (uranium miners, millers, and
ore transporters) be paid out of the Department of Labor’s (Labor) Energy Employees Occupational Illness
Compensation Fund. The RECA Section 5 liability of $316,993 as of March 30, 2004, was transferred to Labor
during FY 2005. The Fund began exclusively paying RECA Section 4 claimants (downwinders and on-site
participants) in FY 2005. The Consolidated Appropriations Act, 2005, contains language that made funding for
the RECA Trust Fund mandatory and indefinite beginning in FY 2006.

The OBDs recognized liabilities of $541,784 and $343,835 for estimated future benefits payable by the
Department as of September 30, 2010 and 2009, respectively, to eligible individuals under the Act through
FY 2022. The estimated liability is based on activity between FYs 2002 - 2010. Key factors in determining
future liability are trends in the number of claims filed, trends in the percentage of claims adjudicated, and trends
in the percentage of claims approved. These estimates are then discounted in accordance with the discount rates
set by the Office of Management and Budget.




                                These notes are an integral part of the financial statements.


                                                            - 75 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
         Statement of Financing)

For the Fiscal Years Ended September 30, 2010 and 2009

                                                                                                  2010             2009
Resources Used to Finance Activities
  Budgetary Resources Obligated
   Obligations Incurred                                                                       $   9,546,213    $   10,091,547
   Less: Spending Authority from Offsetting Collections and Recoveries                            2,417,032         2,271,484
   Obligations Net of Offsetting Collections and Recoveries                                       7,129,181         7,820,063
   Less: Offsetting Receipts                                                                        691,754           287,073
   Net Obligations                                                                                6,437,427         7,532,990

 Other Resources
    Transfers-In/Out Without Reimbursement                                                          (83,327)          (88,608)
    Imputed Financing from Costs Absorbed by Others (Note 16)                                       163,195           161,244
    Net Other Resources Used to Finance Activities                                                   79,868            72,636
Total Resources Used to Finance Activities                                                        6,517,295         7,605,626

Resources Used to Finance Items not Part of the Net Cost of
 Operations
    Net Change in Budgetary Resources Obligated for Goods, Services,
      and Benefits Ordered but not Yet Provided                                                    107,989         (1,012,844)
    Resources That Fund Expenses Recognized in Prior Periods (Note 21)                                   -             (9,267)
    Budgetary Offsetting Collections and Receipts That do not
      Affect Net Cost of Operations                                                                353,737            (13,856)
    Resources That Finance the Acquisition of Assets                                               (76,341)           (57,320)
Total Resources Used to Finance Items not Part of the Net Cost
 of Operations                                                                                     385,385         (1,093,287)

Total Resources Used to Finance the Net Cost of Operations                                    $   6,902,680    $    6,512,339




                              These notes are an integral part of the financial statements.


                                                          - 76 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
         Statement of Financing) (continued)

For the Fiscal Years Ended September 30, 2010 and 2009

                                                                                                  2010            2009
Components of Net Cost of Operations That Will not Require
 or Generate Resources in the Current Period

    Components That Will Require or Generate Resources
     in Future Periods (Note 21)                                                              $    208,029    $     38,093

    Depreciation and Amortization                                                                   29,939          30,799
    Other                                                                                           (6,599)          3,269
Total Components of Net Cost of Operations That Will not Require or
 Generate Resources                                                                                 23,340          34,068

Total Components of Net Cost of Operations That Will not
  Require or Generate Resources in the Current Period                                              231,369          72,161

Net Cost of Operations                                                                        $   7,134,049   $   6,584,500




                              These notes are an integral part of the financial statements.


                                                          - 77 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 21. Explanation of Differences Between Liabilities not Covered by Budgetary Resources
         and Components of Net Cost of Operations Requiring or Generating Resources in
         Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty that budgetary
authority will be realized, such as the enactment of an appropriation, are considered liabilities not covered by
budgetary resources. These liabilities totaling $789,355 and $578,817 on September 30, 2010 and 2009,
respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources. Decreases in these
liabilities result from current year budgetary resources that were used to fund expenses recognized in prior
periods. Increases in these liabilities represent unfunded expenses that were recognized in the current period.
These increases, along with the change in the portion of exchange revenue receivables from the public, which are
not considered budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not covered by
budgetary resources and receivables generating resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                                    2010           2009
 Resources that Fund Expenses Recognized in Prior Periods
    Other
       Decrease in Actuarial FECA Liabilities                                                   $          -   $      (572)
       Decrease in Accrued FECA Liabilities                                                                -          (466)
       Decrease in Contingent Liabilities                                                                  -        (8,000)
       Decrease in Other Unfunded Employment Related Liabilities                                           -          (229)
         Total Other                                                                                       -        (9,267)
          Total Resources that Fund Expenses Recognized in Prior Periods                        $          -   $    (9,267)

 Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
    Increase in Accrued Annual and Compensatory Leave Liabilities            $      4,855     $                     13,121
    (Increase)/Decrease in Exchange Revenue Receivable from the Public             (2,509)                           2,808
    Other
       Increase in Actuarial FECA Liabilities                                       2,518                                 -
       Increase in Accrued FECA Liabilities                                           292
       Increase in Contingent Liabilities                                           4,738                                -
       Increase in Other Unfunded Employment Related Liabilities                      186                                -
       Increase in RECA Liabilities                                              197,949                            22,164
         Total Other                                                             205,683                            22,164
         Total Components of Net Cost of Operations That Will Require
            or Generate Resources in Future Periods                           $ 208,029       $                     38,093

The increase in Exchange Revenue Receivable from the Public varies from the balance sheet as a result of the
UST Fees Receivable which has no associated budgetary accounts.

                                These notes are an integral part of the financial statements.


                                                            - 78 -
Required Supplementary Information 

             Unaudited 





             - 79 -
                                                                                                 U. S. Department of Justice

                                                                                               Offices, Boards and Divisions

                                                                                           Required Supplementary Information

                                                                                      Combining Statements of Budgetary Resources

                                                                                      For the Fiscal Year Ended Septmember 30, 2010



         Dollars in Thousands                                                                                     LA                  NLA                  Earmarked            WCF                Combined

         Budgetary Resources

             Unobligated Balance, Brought Forward, October 1                                            $              213,894    $      148,538       $          35,922    $      255,630     $        653,984

             Recoveries of Prior Year Unpaid Obligations                                                               108,684              67,226                 2,645              47,084            225,639

             Budget Authority
                Appropriations Received                                                                             3,102,094          4,178,309                 309,562                   -           7,589,965
                Spending Authority from Offsetting Collections
                    Earned
                        Collected                                                                                      588,424           194,080                  75,968         1,277,160             2,135,632
                        Change in Receivables from Federal Sources                                                       6,032            (6,611)                  2,133           (46,263)              (44,709)
                    Change in Unfilled Customer Orders
                        Advance Received                                                                                4,388              3,132                       -                 -                 7,520
                        Without Advance from Federal Sources                                                           (6,706)           105,356                      82            (5,782)               92,950
             Subtotal Budget Authority                                                                              3,694,232          4,474,266                 387,745         1,225,115             9,781,358





- 80 -
             Nonexpenditure Transfers, Net, Anticipated and Actual                                                     (11,083)         (198,526)                                     75,097            (134,512)


             Permanently not Available                                                                                    (849)             (40,020)              (9,434)                  -             (50,303)


         Total Budgetary Resources                                                                      $          4,004,878      $    4,451,484       $        416,878     $    1,602,926     $     10,476,166




         LA - Legal Activities provides for the legal activities of the U S Department of Justice,
                 including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions
         NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
                 the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
                 several senior policy offices, and certain activities of the Justice Management Division
         Earmarked - Funds identified as earmarked relate specifically to activities of the U S Trustees and Antitrust Division
         WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department
                                                                                   U. S. Department of Justice

                                                                                  Offices, Boards and Divisions

                                                                              Required Supplementary Information

                                                                     Combining Statements of Budgetary Resources (continued)

                                                                        For the Fiscal Year Ended Septmember 30, 2010



         Dollars in Thousands                                                                LA                 NLA              Earmarked           WCF              Combined

         Status of Budgetary Resources

            Obligations Incurred
               Direct                                                                 $       3,159,040     $    3,851,006   $         317,780   $            -   $       7,327,826
               Reimbursable                                                                     612,140            188,938              78,239        1,339,070           2,218,387
                   Total Obligations Incurred                                                 3,771,180          4,039,944             396,019        1,339,070           9,546,213
            Unobligated Balance - Available
               Apportioned                                                                         97,943          354,452               3,574          211,447            667,416
            Unobligated Balance not Available                                                     135,755           57,088              17,285           52,409            262,537
         Total Status of Budgetary Resources                                          $      4,004,878      $    4,451,484   $        416,878    $    1,602,926   $     10,476,166

         Change in Obligated Balance

            Obligated Balance, Brought Forward, October 1
               Unpaid Obligations                                                     $         851,763     $    3,422,339 $            48,977 $        448,523           4,771,602
               Less: Uncollected Customer Payments from Federal Sources                         328,755             75,562                 634          341,582             746,533
                   Total Unpaid Obligated Balance, Brought Forward, October 1                   523,008          3,346,777              48,343          106,941           4,025,069




- 81 -
            Obligations Incurred, Net                                                         3,771,180          4,039,944             396,019        1,339,070           9,546,213
            Less: Gross Outlays                                                               3,630,960          3,874,814             399,611        1,312,330           9,217,715
            Less: Recoveries of Prior Year Unpaid Obligations, Actual                           108,685             67,225               2,645           47,084             225,639
            Change in Uncollected Customer Payments from Federal Sources                            674            (98,745)             (2,215)          52,045             (48,241)
            Obligated Balance, Net - End of Period
               Unpaid Obligations                                                                 883,299        3,520,242              42,740          428,180           4,874,461
               Less: Uncollected Customer Payments from Federal Sources                           328,082          174,305               2,849          289,538             794,774
                           Total Unpaid Obligated Balance, Net - End of Period        $        555,217      $    3,345,937   $         39,891    $     138,642    $      4,079,687

         Net Outlays

            Gross Outlays                                                             $       3,630,961     $    3,874,814   $         399,611   $    1,312,329   $       9,217,715
            Less: Offsetting Collections                                                        592,812            197,213              75,968        1,277,159           2,143,152
            Less: Distributed Offsetting Receipts                                                     -             52,142             278,016          361,596             691,754

         Total Net Outlays                                                            $      3,038,149      $    3,625,459   $         45,627    $    (326,426) $        6,382,809
                                                                           U. S. Department of Justice

                                                                          Offices, Boards and Divisions

                                                                      Required Supplementary Information

                                                                  Combining Statements of Budgetary Resources

                                                                  For the Fiscal Year Ended September 30, 2009



         Dollars in Thousands                                                                         LA                NLA          Earmarked          WCF             Combined

         Budgetary Resources

             Unobligated Balance, Brought Forward, October 1                                    $      204,353     $      163,801    $    22,621    $    260,324    $      651,099

             Recoveries of Prior Year Unpaid Obligations                                               110,889            100,306          1,839          39,812           252,846

             Budget Authority
                Appropriations Received                                                              2,922,265          4,938,875        342,490                -         8,203,630
                Spending Authority from Offsetting Collections
                    Earned
                       Collected                                                                       507,808            200,676         57,631        1,079,731         1,845,846
                       Change in Receivables from Federal Sources                                       57,569            (28,865)       (14,912)         128,357           142,149
                    Change in Unfilled Customer Orders
                       Advance Received                                                                 (5,955)            19,626              -                -            13,671
                       Without Advance from Federal Sources                                             10,066                646             74            6,186            16,972




- 82 -
             Subtotal Budget Authority                                                               3,491,753          5,130,958        385,283        1,214,274        10,222,268


             Nonexpenditure Transfers, Net, Anticipated and Actual                                        2,076          (263,268)             -          89,948           (171,244)


             Permanently not Available                                                                   (6,438)         (103,000)             -        (100,000)          (209,438)


         Total Budgetary Resources                                                              $ 3,802,633        $ 5,028,797       $ 409,743      $ 1,504,358     $ 10,745,531

         LA - Legal Activities provides for the legal activities of the U S Department of Justice,
                  including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions
         NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
                  the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
                  several senior policy offices, and certain activities of the Justice Management Division
         Earmarked - Funds identified as earmarked relate specifically to activities of the U S Trustees and Antitrust Division
         WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department
                                                                  U. S. Department of Justice

                                                                 Offices, Boards and Divisions

                                                             Required Supplementary Information

                                                    Combining Statements of Budgetary Resources (continued)

                                                        For the Fiscal Year Ended September 30, 2009



         Dollars in Thousands                                                         LA             NLA         Earmarked         WCF             Combined

         Status of Budgetary Resources

            Obligations Incurred
               Direct                                                            $   2,982,258   $   4,686,144   $   331,031   $           -   $     7,999,433
               Reimbursable                                                            606,481         194,115        42,790       1,248,728         2,092,114
                   Total Obligations Incurred                                        3,588,739       4,880,259       373,821       1,248,728        10,091,547
            Unobligated Balance - Available
               Apportioned                                                            103,568         110,230          9,249        227,785            450,832
            Unobligated Balance not Available                                         110,326          38,308         26,673         27,845            203,152
         Total Status of Budgetary Resources                                     $ 3,802,633     $ 5,028,797     $ 409,743     $ 1,504,358     $ 10,745,531

         Change in Obligated Balance

            Obligated Balance, Brought Forward, October 1
               Unpaid Obligations                                                $     737,842   $   1,986,223   $    40,929   $     506,870   $     3,271,864




- 83 -
               Less: Uncollected Customer Payments from Federal Sources                261,120         103,780        15,473         207,039           587,412
                   Total Unpaid Obligated Balance, Brought Forward, October 1          476,722       1,882,443        25,456         299,831         2,684,452
            Obligations Incurred, Net                                                3,588,739       4,880,259       373,821       1,248,728        10,091,547
            Less: Gross Outlays                                                      3,363,929       3,343,838       363,933       1,267,263         8,338,963
            Obligated Balance Transferred, Net
                                      g
                        p
            Less: Recoveries of Prior Year Unpaid Obligations, Actual                 110,889         100,306          1,839         39,812            252,846
            Change in Uncollected Customer Payments from Federal Sources              (67,635)         28,219         14,838       (134,543)          (159,121)
            Obligated Balance, Net - End of Period
               Unpaid Obligations                                                     851,763        3,422,339        48,977        448,523          4,771,602
               Less: Uncollected Customer Payments from Federal Sources               328,755           75,562           634        341,582            746,533
                           Total Unpaid Obligated Balance, Net - End of Period   $   523,008     $ 3,346,777     $   48,343    $   106,941     $     4,025,069

         Net Outlays

            Gross Outlays                                                        $   3,363,929   $   3,343,838   $   363,933   $   1,267,263 $       8,338,963
            Less: Offsetting Collections                                               501,854         220,303        57,630       1,079,730         1,859,517
            Less: Distributed Offsetting Receipts                                            -          66,785       226,930          (6,642)          287,073

         Total Net Outlays                                                       $ 2,862,075     $ 3,056,750     $   79,373    $   194,175     $     6,192,373
